Appendix A
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
) E-FILED
) 25 February 2011

UNITED STATES OF
AMERICA,
Plaintiff,
v.

)
)
)

ROBERT K. ZABKA, DEBRA ) Case No. 10-1078
)
ZABKA, BROOKSTONE
)
HOSPITALITY LIMITED
PARTNERSHIP, ANTIQUES )
)
LIMITED PARTNERSHIP,
ZFP LIMITED PARTNERSHIP)
)
PRARIE STATE BANK &
)
TRUST, N.A., FIRST MID)
ILLINOIS BANK & TRUST,
)
N.A., BANK OF AMERICA,
)
N.A., and ELEOS, LLC,
)
Defendants,
ORDER
Now before the Court is Plaintiff United States of
America’s Motion for Partial Summary Judgment,
Motion for Telephonic Oral Argument, and Defen­
dants’ Motion to Compel. For the reasons set forth
below, the Motion for Summary Judgment [#19] is
GRANTED. The Motion for Telephonic Oral Argu­
ment [#33] is DENIED, and the Motion to Compel
[#28] is DENIED.

• App. 1

LOCAL RULE 7.1(D)(2)(b)
Local Rule 7.1(D)(2)(b) of the Central District of
Illinois provides the rule for a non-movant’s response
to Undisputed Material Facts. Local Rule 7.1(D)(2)(b)
(2) provides that in responding to allegedly undisput­
ed material facts, the party filing the response shall:
List by number each fact from Section B of
the motion for summary judgment which is
conceded to be material but is claimed to be
disputed. Each such claim of disputed fact
must be supported by evidentiary documen­
tation referenced by specific page. Include as
exhibits all cited documentary evidence not
already submitted by the movant.
Furthermore, Local Rule 7.1(D)(2)(b)(6) states
that “A failure to respond to any numbered fact will
be deemed an admission of the fact.” The Seventh
Circuit has “repeatedly ... sustained the entry of
summary judgment where the non-movant has failed
to submit a factual statement in the form called for
by the pertinent rule and thereby concedes the
movant’s version of the facts.” Waldridge v. American
Hoechst Corp., 24 F.3d 918, 922 (7th Cir. 1994).
Despite the fact that Defendants are represented
by counsel, who should be well-aware of the require­
ments of the Local Rules of any district in which they
practice, including Local Rule 7.1(D), Defendants
have failed to file a proper response to Plaintiffs
statement of undisputed facts. In fact, the totality of
their response with respect to undisputed fact 2 is as
follows:

App. 2

The Zabkas dispute Plaintiffs allegation that
an assessment was made against the Zabkas
for years 1996 and 1997, following the U.S.
Tax Court’s Decision. Plaintiff produces no
evidence of assessment for 1996 and 1997.
Moreover, Revenue Officer Sam Randazzo’s
declaration is insufficient to establish assess­
ment.
(Defendants’ Response at 2.) This response is insuf­
ficient and fails to comply with Local Rule 7.1(D)(2)
(b)(2) in that if fails to indicate how it renders the
identified statement as false or otherwise in dispute;
it is purely argumentative. Moreover, the response
contains no references by page to pertinent eviden­
tiary documentation establishing the issue of fact.
Accordingly, the Court is justified in treating such
statements as admitted to the extent that Defen­
dants’ response is non-responsive to the identified
statements of undisputed fact.

BACKGROUND
On June 28, 2000, Robert K. Zabka and Debra
Zabka (“Zabkas” or “Defendants”) filed a petition
with the U.S. Tax Court seeking a redetermination of
their federal income tax liability for the years 1996
and 1997. On April 21, 2004 the United States Tax
Court determined that there were deficiencies in
income tax, additions to tax, and penalties due from
the Zabkas totaling $1,204,825.59 for tax years 1996
and 1997. The Complaint alleges that notices of the
assessments and demands for payment were then
sent to the Zabkas on or about the dates of the
assessments. The Zabkas have not paid the defi-

App. 3

ciencies, and, as of April 16, 2010, the Zabkas’
outstanding balance is $1,769,458.26.
On April 22, 2009, the Zabkas submitted a Free­
dom of Information Act (“FOIA”) Request to Disclo­
sure Officer Stephanie Brown (“Brown”) for the tax
years 1996 thru 1999, inclusive. The Zabkas request­
ed their “entire file held by IRS Technical Services
Advisory Group, Stop 5012 CHI Group Manager,
David Jacoby and Revenue Officer Sam Randazzo.”
The Defendants then received over 1,300 pages from
Brown. According to Defendants, there was no Form
23C “Summary Record of Assessments” or Form 4340
“Certificate of Assessment” included in the returned
documentation. There were no other documents
signed by an assessment officer on the date of the
alleged assessment.
On March 2, 2010, the United States Govern­
ment (“Government”) filed its Complaint requesting
a determination on unpaid assessments of income
tax, penalties, and interest for the years 1996-1999.
The Government has now moved for partial sum­
mary judgment on Defendants’ liability for tax years
1996 and 1997. The matter is fully briefed and this
Order follows.
DISCUSSION
Summary judgment should be granted where the
“pleadings, the discovery and disclosure materials on
file, and any affidavits show that there is no genuine
issue as to any material fact and that the movant is
entitled to judgment as a matter of law.” FED. R.
CIV. P. 56(c). The moving party has the responsibil­
ity of informing the Court of portions of the record or
affidavits that demonstrate the absence of a triable

App . 4

issue. Celotex Corp. v. Catrett, 477 U.S. 317, 323
(1986). The moving party may meet its burden of
showing an absence of material facts by demonstrat­
ing “that there is an absence of evidence to support
the nonmoving party’s case.” Id. at 325. Any doubt as
to the existence of a genuine issue for trial is resolved
against the moving party. Anderson v. Liberty Lobby,
Inc., 411 U.S. 242, 255 (1986); Cain v. Lane, 857 F.3d
1139, 1142 (7th Cir. 1988).
If the moving party meets its burden, the
nonmoving party then has the burden of presenting
specific facts to show that there is a genuine issue of
material fact. Matsushita Elec. Indus. Co., Ltd. u.
Zenith Radio Corp., 475 U.S. 574, 586-87 (1986).
Federal Rule of Civil Procedure 56(e) requires the
nonmoving party to go beyond the pleadings and
produce evidence of a genuine issue for trial. Celotex
Corp., 477 U.S. at 324. The Court must then
determine whether a trial is necessary - whether, in
other words, there are any genuine factual issues
that must be resolved only by a finder of fact because
they may be reasonably resolved in favor of either
party. Anderson, 477 U.S. at 249; Hedberg v. Indiana
Bell Tel. Co., Inc., 47 F.3d 928, 931 (7th.Cir. 1995).
Finally, where a party bears the burden of proof on
an issue, he or she must affirmatively demonstrate,
by specific factual allegations, that there is a genuine
issue of material fact requiring trial. Sarsha v. Sears,
Roebuck & Co., 3 F.3d 1035, 1041 (7th Cir. 1993).
Plaintiff asserts a single basis for the entry of
summary judgment in its favor: the Zabkas are liable
for the unpaid balance of the assessments for the
years 1996 and 1997. Normally, the Government
establishes its prima facie case of liability by
introducing into evidence certified copies of the

App. 5

federal tax assessment. United States of America v.
Hart, 1989 U.S. Dist. Lexis 13675 (C.D. Ill. 1989).
Title 26 U.S.C. § 6203 provides that an “assessment
shall be made by recording the liability of the
taxpayer in the office of the Secretary in accordance
with rules or regulations prescribed by the
Secretary.” The corresponding regulation then
directs that “[t]he assessment shall be made by an
assessment officer signing the summary record of
assessment.” 26 CFR § 301.6203-1. Historically, this
was done using Form 23C, but that being said, “no
regulation or statute requires that the ‘copy of the
record of assessment’ mentioned in 26 U.S.C. § 6203
be made on a Form 23C.” March v. Internal Revenue
Service, 335 F.3d 1186, 1188 (10th Cir. 2003).
Here, the Government provides no copies of the
actual federal tax assessment or Form 23C, but,
instead, includes a copy of the Tax Court decision by
Judge Wells and a Declaration of Revenue Officer
Randazzo. Although the Defendants attempt to argue
that the assessments were never made, by virtue of
their failure to comply with Local Rule 7.1(D)(2)(b),
they have admitted that:
On August 9, 2004, a delegate of the Secre­
tary of Treasury made assessments of income
tax, penalties, and interest (through the date
of assessment) against Robert K. Zabka and
Debra Zabka, jointly and severally, for the
years 1996 and 1997, in the following
amounts:

Year
1996
1997

Tax
$258,136.00
271,283.00

App. 6

§6651(a)(D Pen.
$51,627.20
67,820.75

56662(a)(2) Pen. Interest
$242,471.41
$51,627.20
207,603.43
54,256.60
Since Defendants have been deemed to concede this
material fact, the Court accepts that the assessment
was made, and finds that the Government has es­
tablished a prima facie case of liability.
Even assuming that the Court did not enforce
the requirements of Local Rule 7.1(D) against the
Zabkas, summary judgment would still be appropri­
ate. The Zabkas’ attempt to avoid summary judg­
ment by criticizing the documents produced by the
Government in response to their request for the Cer­
tificates of Assessment. It is well-settled that while a
taxpayer has the right to request a copy of certain
parts of the assessment record, the IRS is not re­
quired to provide a copy of the actual Summary
Record of Assessment. March, 335 F.3d at 1188.
Rather:
[CJourts have held that the IRS may submit
Certificates of Assessments and Payments on
Form 4340. Form 4340 details the assess­
ments made and the relevant date that a
Summary Record of Assessment was exe­
cuted. The courts have also held that these
Certificates on Form 4340 “are presumptive
proof of a valid assessment.”
Id.; United States v. McCallum, 970 F.2d 66, 71 (5th
Cir. 1992) (holding that a Form 4340 can be “pre­
sumptive proof of a valid assessment where the tax­
payer has produced no evidence to counter that pre-

App. 7

sumption”); United States v. Wesselman, 2010 WL
5394728, at *2 (7th Cir. Dec. 23, 2010); Geiselman v.
United States, 961 F.2d 1, 6 (1st Cir. 1992). This is
precisely what the Government did in this case in
producing Certificates of Official Record for 1996 and
1997 signed under seal by Michael C. Loughran
(Loughran), Accounting Operations Manager for the
Kansas City Submission Processing Center. The
documents each consist of Loughran’s certification,
as well as a multi-page, computerized Certificate of
Assessments, Payments, and Other Specified Mat­
ters on Form 4340. Both documents identify the
Zabkas as the taxpayers by both name and social
security number; both show that taxes and penalties
were assessed after the Zabkas failed to pay, the
assessment date (23C or RAC 006), and reference the
issuance of statutory notices. Accordingly, the
Government has introduced presumptive proof of
valid assessments.
The Zabkas next attempt to rebut the presump­
tive validity of the assessments by asserting that
they never received any notice of assessment. How­
ever, it is the preparation and sending of the notice,
rather than the actual receipt by the taxpayer that is
important. A notice of deficiency is valid, even if it is
not received by the taxpayer, if it is mailed to the
taxpayer’s “last known address.” 26 U.S.C. §
6212(b)(1); Hughes u. United States, 953 F.2d 531,
541-42 (9th Cir. 1992). Their own self-serving
declarations stating that they never received a
summary of assessment or duly signed certificate of
assessment are simply insufficient to demonstrate
that the notices were not sent. Hansen v. United
States, 7 F.3d 137, 138 (9th Cir. 1993); Perez v.
United States, 312 F.3d 191, 195-96 (5th Cir. 2002).

App. 8

The Zabkas have introduced no evidence promoting
the reasonable inference that the notices were not in
fact mailed, mailed to an incorrect address, or were
mailed to some address other than their last known
address.
Finally, the Zabkas rely on the response they re­
ceived to a Freedom of Information Act Request
dated April 21, 2009, to Disclosure Office Stephanie
Brown, requesting their “entire file held by Technical
Services Advisory Stop 5012 CHI, Group Manager,
David Jacoby, and Sam Randazzo.” They argue that
the fact that this response did not contain any Form
23C Summary Records of Assessment or Form 4340
Certificates of Assessment affirmatively establishes
that no such assessments were ever made. With all
due respect, this request can best be described as
equivalent to a letter sent to a security guard at the
National Archives requesting a copy of all documents
in his possession and then suggesting that because
he did not provide a copy of the U.S. Constitution
that it does not exist. This artfully worded request
seeking only the file as held by a very specific office,
rather than a general records custodian or some
other entity within the IRS more likely to possess en­
tire taxpayer files, cannot reasonably promote the
inference that the Zabkas seek to draw. They have
therefore failed to rebut the presumptive validity of
the assessments in question.
Once the Government has established a prima
facie case of liability, the burden of proof is placed on
the taxpayer to show that the assessment is incorrect
and to show the correct amount of tax due. Id,. , citing
United States v. Janis, 428 U.S. 433 (1976); Louis v.
Reynolds, 284 U.S. 281 (1932). However, the Zabkas
have already had the opportunity to argue the merits

App. 9

of their case when it was before the Tax Court. Be­
cause the Tax Court has already ruled on the cor­
rectness of the amount due, judgment on the merits
is res judicata as to any subsequent proceeding in­
volving the same claim and year. Commissioner v.
Sunnen, 333 U.S. 591, 598 (1948). Therefore, res ju­
dicata precludes the Zabkas from contesting liability
for any deficiencies for the years 1996 and 1997. Id.
As a result, they are unable to rebut the Govern­
ment’s prima facie case, and summary judgment in
favor of the Plaintiff, the United States of America,
will be allowed as to its claims regarding the Zabkas’
liability for unpaid assessments of income tax, penal­
ties, and interest in the amount of $834,476.00 for
the year 1996 and in the amount of $934,982.26 for
the year 1997 plus interest and other statutory addi­
tions accruing from and after April 15, 2010.
CONCLUSION
The United States Government has established a
prima facie case of liability for amounts due on as­
sessment for the years 1996 and 1997. The Zabkas
have not rebutted the validity of the assessments and
are barred from challenging the correctness of the
assessments. Consequently, they are liable to the
Government based on unpaid assessments of federal
income tax, penalties, and interest, in the amount of
$834,476.00 for 1996 and $934,982.26 for 1997, each
plus interest and other statutory additions accruing
from and after April 15, 2010. Therefore, for the rea­
sons set forth above, Plaintiffs Motion for Partial
Summary Judgment [#19] is GRANTED, and Defen­
dants’ Motion for Telephonic Oral Argument [#33] is
DENIED. Defendants’ Motion to Compel [#28] is

App. 10

DENIED, as it is premised upon the assertion that
the Form 3430s produced by the Government are in­
sufficient.
Entered this 25th day of February, 2011.
s/ Michael M. Mihm
Michael M. Mihm
United States District Judge

App. 11

Appendix B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
) E-FILED
) 14 July, 2011

UNITED STATES OF
AMERICA,
Plaintiff,
v.

)

) Case No. 10-1078

ROBERT K. ZABKA, et al.
Defendants,

)
)
)

ORDER
Now before the Court are several pending mo­
tions filed by both Plaintiff and Defendants. Oral ar­
gument was held on July 8, 2011, and the matters
were taken under advisement. For the reasons set
forth below, Defendants’ Motion to Withdraw Erro­
neous Admissions [#67] is DENIED. Defendants’ Mo­
tion to Compel Discovery [#70] is DENIED, and
Plaintiffs Motion for Protective Order [#85] is
GRANTED. Defendants’ First Request for Judicial
Notice [#109] is DENIED, and their Motion for Re­
consideration [#68] is also DENIED. The Govern­
ment’s Motion for Partial Summary Judgment for
Tax Years 1998-99 [#66] is GRANTED.
JURISDICTION
The Court has jurisdiction over this matter pursuant
to 26 U.S.C. §§7402 and 7403, and 28 U.S.C. §§1340

App. 12

and 1345.
BACKGROUND
On October 6, 2003, the Secretary of the Treas­
ury made assessments against Robert K. Zabka and
Debra Zabka for $959,775.30 for income tax, penal­
ties, and interest for the years 1998 and 1999. The
Zabkas are alleged to owe $219,371.00 in taxes,
$43,874.20 in penalties, and $65,707.09 in interest
charges for 1998, and $423,392.00 in taxes,
$84,678.40 in penalties and $122,752.61 in interest
charges for 1999. The Zabkas have not paid the defi­
ciencies, and, as of December 21, 2009, the Zabkas’
outstanding balance is $3,345,328.46.
Until October 3, 2000, the Zabkas owned record
title, or record title was held in a trust in their
names, to 10 properties. The properties are located in
Charleston, Illinois, at the following addresses:
18515 Chief Road, 1441 7th Street; 1443 7th Street,
738 18th Street, 1436 9th Street, 1438 9th Street,
1448 9th Street, 1725 Harrison Street, 17585
Harrison Street, and 17613 Harrison Street
(collectively known as “The Properties”). The Zabkas
acquired title to each of The Properties between June
1987 and November 1999.
The Zabkas transferred title to The Properties to
one of three limited partnerships. The limited part­
nerships include Brookstone Hospitality Limited
Partnership, Antiques Limited Partnership, and ZFP
Limited Partnership (collectively known as the
“Limited Partnerships”). Several of The Properties
were transferred by a warranty deed dated October
3, 2000. These were then recorded on either Novem­
ber 3, 2003, or November 7, 2003. .However, some of

App. 13

The Properties were both transferred and recorded
on November 3, 2003.
On March 2, 2010, the Government brought this
action to obtain judgment and to collect unpaid fed­
eral income tax assessments against the Zabkas, to
obtain declaration that the federal tax hens associ­
ated with the unpaid income tax assessments against
the Zabkas attached to The Properties, and to fore­
close those federal tax hens. On December 28, 2010,
the Zabkas filed their First Amended Counterclaims
seeking damages from the United States for unlawful
collections actions, failing to release invalid hens
upon request, the unauthorized disclosure of infor­
mation, and deprivation of due process.
DISCUSSION
1. Motion to Withdraw Erroneous Admissions
The Zabkas ask leave to withdraw admissions
offered against them in the Government’s Motion for
Partial Summary Judgment as to 1998-99. The Gov­
ernment served the requests for admission and re­
ceived no response within the required time frame,
resulting in the requests being deemed admitted. De­
fendants respond that the requests were received by
their attorney but were not acted on or forwarded to
them and that they had previously indicated that
they would not stipulate to a similar informal re­
quest. Interestingly enough, however, Defendants’
motion and argument do not attack the validity of
the admissions and appear to be based on a misap­
prehension of what the admissions establish. The
admissions ask them to admit whether the copies of
their tax returns filed are authentic and whether the
third document is an accurate copy of a notice of defi-

App. 14

ciency dated 3/14/03. The admissions do not ask De­
fendants to stipulate to the fact that they received
the notice or the amount of tax owed.
Defendants argue that they received various
versions of the notice from a FOIA request, some of
which are unsigned drafts or preliminary
calculations, but they do not give specific reasons for
attacking the notice offered by the Government
beyond the assertion that the various documents
received pursuant to a FOIA request somehow
render the notice produced in this case “suspect.”
While the Court can allow the withdrawal of ad­
missions where “it would promote the presentation of
the merits of the action and if the court is not per­
suaded that it would prejudice the requesting party
in maintaining or defending the action on the mer­
its,” it would seem that there would be no purpose in
doing so here as the Zabkas’ opposition does not
promote the presentation of the merits of the action.
Accordingly, the Motion to Withdraw Admissions is
denied.
2. Motion to Compel Discovery
Defendants ask the Court to compel the produc­
tion of documents that the Government objected to as
“an improper attempt to circumvent the provisions of
FOIA for appeals of adverse decisions of the agency
head and action.” Defendants summarily argue that
this objection is not allowed under the Federal Rules
of Civil Procedure, which require the production of
relevant discovery that is not otherwise privileged.
The Government responds that in addition to that
objection, it took the position that the documents
were not relevant and were protected from disclosure
under the governmental deliberative process, work

App. 15

product, and attorney-client privileges, or prohibited
from disclosure under 26 U.S.C. § 6103. As the mo­
tion addresses only the FOIA objection and seeks dis­
covery of documents that have been rendered irrele­
vant and non-probative as a result of other rulings in
this case, the motion must be denied.
3. Motion for Protective Order
The Government asks the Court to enter a
protective order excusing them from responding to
Defendants’ Fourth Written Discovery Request con­
sisting of 92 requests for admission, 33 interrogato­
ries, and 7 requests to produce. Specifically, admis­
sions, interrogatories, and production are all related
to: (1) whether assessments were made against the
Zabkas; (2) the validity of consents to the extension
of time for any such assessments; (3) whether notices
of deficiency were sent by the IRS; and (4) the draft
notices of deficiency received in response to the FOIA
request. In' light of the Court’s ruling on both Mo­
tions for Partial Summary Judgment, this request is
granted.
4. First Request for Judicial Notice
Rule 201(b) of the Federal Rules of Evidence de­
fines the type of adjudicative facts of which a court
may take judicial notice: “A judicially noticed fact
must be one not subject to reasonable dispute in that
it is either (1) generally known within the territorial
jurisdiction of the trial court or (2) capable of accu­
rate and ready determination by resort to sources
whose accuracy cannot reasonably be questioned.”
Here, Defendants essentially ask the Court to take
judicial notice of their documentary evidence, the fac­
tual conclusions that they draw from their interpre-

App.16

tation of the evidence, and their legal conclusions.
These are plainly not the type of adjudicative facts
intended for judicial notice under Rule 201, and the
Court denies the request.
5. Motion for Reconsideration
“Motions for reconsideration serve a limited func­
tion: to correct manifest errors of law or fact or to
present newly discovered evidence.” Caisse Nationale
de Credit v. CBI Industries. 90 F.3d 1264, 1269 (7th
Cir. 1996). Furthermore, it is not appropriate to ar­
gue matters that could have been raised in prior mo­
tions or rehash previously rejected arguments in a
motion to reconsider. IcL at 1270.
Defendants’ Motion largely consists of rearguing
previously rejected arguments and legal interpreta­
tions, as well as reliance on case law that is no longer
valid. Additionally, while Defendants suggest that
they base their Motion on newly discovered evidence,
they are incorrect. The Zabkas refer to a letter that
they received in 2000 from the IRS’s Regional Ap­
peals Office, based on which they allegedly accepted
an offer in compromise and took action in the U.S.
Tax Court. Given the receipt of this letter and al­
leged action taken in response long before the filing
of this case, it cannot be reasonably deemed “newly
discovered evidence” and could have been raised pre­
viously through the exercise of due diligence.
The Zabkas also refer to discovery responses re­
ceived after they filed their response but prior to the
Court’s ruling on summary judgment. They then of­
fer their interpretation of these responses as applied
to their previously rejected legal theories, but this
effort is unavailing as different facts applied to the
same fatally flawed analysis warrant the same re-

App. 17

suit. Furthermore, there is no reason why such ar­
guments couldn’t have been made previously. If the
Zabkas believed that additional discovery was neces­
sary before responding to the prior motion for sum­
mary judgment, they could have certified that such
discovery was necessary under Rule 56(d) and had
such information prior to filing their response. Their
failure to do so does not warrant relief under a mo­
tion for reconsideration.
6. Motion for Partial Summary Judgment as to Tax
Years 1998-99
On June 7, 1999, the Zabkas’ 1998 federal in­
come tax return was processed by the IRS; their 1999
federal income tax return was processed on May 22,
2000. A statutory notice of deficiency dated March
14, 2003, was prepared by the IRS in connection with
the Zabkas’ income tax liability for 1998 and 1999.
Although the Zabkas deny ever receiving the notice,
IRS records indicate that it was sent by certified mail
on March 14, 2003 to the Zabkas at several known
addresses. In addition to the IRS date stamp, the cer­
tified mail log also bears a stamp that indicates re­
ceipt by the United States Postal Service location in
Chicago, Illinois 60604, on March 14, 2003. Corre­
sponding certified mail receipts bear the same USPS
stamp dated March 14,2003.
The Government asserts that a delegate of the
Secretary of the Treasury made assessments against
the Zabkas for income tax, the accuracy-related pen­
alty, and interest through the date of the assessment
for 1998 and 1999 on October 6, 2003, in the follow­
ing amounts:

App. 18

Year
1998
1999

Related Pen. Interest
Tax
$219,371.00 $43,874.20 $65,707.09
$423,392.00 $84,678.40 $122,752.61

The Zabkas deny that any such assessments were
made, again relying on documents received in FOIA
requests that predated this litigation.
On March 2, 2010, the Government filed its Com­
plaint requesting a determination on unpaid assess­
ments of income tax, penalties, and interest for the
years 1996-1999. Partial summary judgment was en­
tered in favor of the Government for tax years 1996
and 1997, and the Government has now moved for
partial summary judgment on Defendants liability
for tax years 1998 and 1999. The matter is fully
briefed and this Order follows.
DISCUSSION
Summary judgment should be granted where the
“pleadings, the discovery and disclosure materials on
file, and any affidavits show that there is no genuine
issue as to any material fact and that the movant is
entitled to judgment as a matter of law.” FED. R.
CIV. P. 56(c). The moving party has the responsibil­
ity of informing the Court of portions of the record or
affidavits that demonstrate the absence of a triable
issue. Celotex Corn, v. Catrett. 477 U.S. 317, 323
(1986). The moving party may meet its burden of
showing an absence of material facts by demon­
strating “that there is an absence of evidence to sup­
port the nonmoving party’s case.” Id. at 325. Any
doubt as to the existence of a genuine issue for trial
is resolved against the moving party. Anderson v.
Liberty Lobby. Inc.. 477 U.S. 242, 255 (1986); Cain v.

App. 19

Lane. 857 F.3d 1139, 1142 (7th Cir. 1988).
If the moving party meets its burden, the non­
moving party then has the burden of presenting spe­
cific facts to show that there is a genuine issue of ma­
terial fact. Matsushita Elec. Indus. Co.. Ltd, v. Zenith
Radio Com.. 475 U.S. 574, 586-87 (1986). Federal
Rule of Civil Procedure 56(e) requires the nonmoving
party to go beyond the pleadings and produce evi­
dence of a genuine issue for trial. Celotex Corn.. 477
U.S. at 324. The Court must then determine whether
a trial is necessary - whether, in other words, there
are any genuine factual issues that must be resolved
only by a finder of fact because they may be reasona­
bly resolved in favor of either party. Anderson. 477
U.S. at 249; Hedberg v. Indiana Bell Tel. Co.. Inc.. 47
F.3d 928, 931 (7th Cir. 1995). Finally, where a party
bears the burden of proof on an issue, he or she must
affirmatively demonstrate, by specific factual allega­
tions, that there is a genuine issue of material fact
requiring trial. Sarsha v. Sears. Roebuck & Co.. 3
F.3d 1035, 1041 (7thCir. 1993).
Plaintiff asserts a single basis for the entry of
summary judgment in its favor: the Zabkas are liable
for the unpaid balance of the assessments for the
years 1998 and 1999. Normally, the Government es­
tablishes its prima facie case of liability by intro­
ducing into evidence certified copies of the federal tax
assessment. United States of America v. Hart. 1989
U.S. Dist. Lexis 13675 (C.D. Ill. 1989). Title 26
U.S.C. § 6203 provides that an “assessment shall be
made by recording the liability of the taxpayer in the
office of the Secretary in accordance with rules or
regulations prescribed by the Secretary.” The corre­
sponding regulation then directs that “[t]he assess­
ment shall be made by an assessment officer signing

App. 20

the summary record of assessment.” 26 CFR §
301.6203-1. Historically, this was done using Form
23C, but that being said, “no regulation or statute
requires that the ‘copy of the record of assessment’
mentioned in 26 U.S.C. § 6203 be made on a Form
23C.” March v. Internal Revenue Service. 335 F.3d
1186, 1188 (10th Cir. 2003).
The Zabkas again attempt to avoid summary
judgment by criticizing the documents produced by
the Government in response to their request for the
Certificates of Assessment. It is well-settled that
while a taxpayer has the right to request a copy of
certain parts of the assessment record, the IRS is not
required to provide a copy of the actual Summary
Record of Assessment. March, 335 F.3d at 1188.
Rather:
[C]ourts have held that the IRS may
submit Certificates of Assessments and
Payments on Form 4340. Form 4340 de­
tails the assessments made and the
relevant date that a Summary Record of
Assessment was executed. The courts
have also held that these Certificates on
Form 4340 “are presumptive proof of a
valid assessment.”
Id.: United States v. McCallum. 970 F.2d 66, 71 (5th
Cir. 1992) (holding that a Form 4340 can be “pre­
sumptive proof of a valid assessment where the tax­
payer has produced no evidence to counter that pre­
sumption”); United States v. Wesselman, 2010 WL
5394728, at *2 (7th Cir. Dec. 23, 2010); Geiselman v.
United States. 961 F.2d 1, 6 (1st Cir. 1992). This is
precisely what the Government did in this case in

App. 21

producing Certificates of Official Record for 1998 and
1999 signed under seal by Michael C. Loughran
(Loughran), Accounting Operations Manager for the
Kansas City Submission Processing Center. The
documents each consist of Loughran’s certification,
as well as a multi-page, computerized Certificate of
Assessments, Payments, and Other Specified
Matters on Form 4340. Both documents identify the
Zabkas as the taxpayers by both name and social
security number; both show that taxes and penalties
were assessed after the Zabkas failed to pay, the
assessment date (23C or RAC 006), and reference the
issuance of statutory notices. Accordingly, the
Government has introduced presumptive proof of
valid assessments.
As they did in response to the prior summary
judgment motion, the Zabkas attempt to rebut the
presumptive validity of the assessments by asserting
that they never received any notice of assessment.
However, it is the preparation and sending of the no­
tice, rather than the actual receipt by the taxpayer
that is important. A notice of deficiency is valid, even
if it is not received by the taxpayer, if it is mailed to
the taxpayer’s “last known address.” 26 U.S.C. §
6212(b)(1); Hughes v. United States. 953 F.2d 531;
541-42 (9th Cir. 1992). Their own self-serving decla­
rations stating that they never received a summary
of assessment or duly signed certificate of assess­
ment are simply insufficient to demonstrate that the
notices were not sent. Hansen v. United States. 7
F.3d 137, 138 (9th Cir. 1993); Perez v. United States.
312 F.3d 191, 195-96 (5th Cir. 2002). The Zabkas
have introduced no evidence promoting the reason­
able inference that the notices were not in fact
mailed, mailed to an incorrect address, or were

App. 22

mailed, to some address other than their last known
address.
Furthermore, in light of their admissions, the
Zabkas’ attempt to cast suspicion on the notices by
referencing several other drafts and copies of the no­
tice that were obtained through a FOIA request pre­
dating this case is unavailing. They focus on minor
discrepancies in what were clearly revisions and
drafts of the working document and argue that they
were never sent, when the Government does not con­
tend that any of the drafts or working copies were in
fact sent. Defendants also fail to address the import
of the USPS stamp on the mailing log or certified
mail receipts or claim that none of the various ad­
dresses to which the notices were mailed were their
known addresses. They have therefore failed to rebut
the presumptive validity of the assessments in ques­
tion or the presumption that the notices were mailed
that arises pursuant to O’Rourke v. United States.
587 F.3d 537, 540 (2nd Cir. 2009).
Once the Government has established a prima
facie case of liability, the burden is placed on the
taxpayer to show that the assessment is incorrect
and to show the correct amount of tax due. United
States v. Schroeder, 900 F.2d 1144, 1148 (7th Cir.
1990); United States v. Janis. 428 U.S. 433 (1976);
Louis v. Reynolds, 284 U.S. 281 (1932). While Defen­
dants attempt to do this by referencing discrepancies
in figures among the draft and working copies of the
notices received pursuant to their FOIA request dis­
cussed previously, they have admitted that, “[t]he
adjustments to income and deductions, and the other
determinations that are set forth in [the March 14,
2003, notice] are all correct, and the computations
and amounts that are set forth in [the March 14,

App. 23

2003, notice] are accurate and correct.”
The Zabkas argue that any assessments were not
timely made because they were not provided notice of
their right to refuse or limit extension of the assess­
ment date when asked to sign waivers for the 1998
and 1999 tax years. However, Defendants have not
cited and the Court is otherwise unaware of any
caselaw establishing that a failure to notify a debtor
of the right to refuse to extend the statutory period
renders his or her consent void as a matter of law.
Finally, Defendants assert that a statement to
the effect that “there was no certified/registered re­
ceipt” in a Case Notes Report documenting a July 31,
2007, telephone conversation between an IRS em­
ployee and IRS Revenue Officer Campagna somehow
establishes that the IRS did not send the statutory
notice of deficiency to them. When considered in con­
text, the only reasonable interpretation of this com­
ment is that the Zabkas did not sign the receipt for
the certified mail package. Although this could be in­
dicative of the mailing not being received, it is in no
way probative of the contention that the mailing was
not sent.
As a result, Defendants are unable to rebut the
Government’s prima facie case, and summary judg­
ment in favor of the Plaintiff, the United States of
America, will be allowed as to its claims regarding
the Zabkas’ liability for unpaid assessments of in­
come tax, penalties, and interest in the amount of
$570,569.52 for the year 1998 and in the amount of
.$1,096,965.45 for the year 1999 plus interest and
other statutory additions accruing from and after
January 18, 2011.

App. 24

CONCLUSION
For the reasons set forth herein, Defendants’ Mo­
tion to Withdraw Erroneous Admissions [#67] is
DENIED. Defendants’ Motion to Compel Discovery
[#70] is DENIED, and Plaintiffs Motion for Protec­
tive Order [#85] is GRANTED. Defendants’ First Re­
quest for Judicial Notice [#109] is DENIED, and
their Motion for Reconsideration [#68] is also DE­
NIED. The Government’s Motion for Partial Sum­
mary Judgment for Tax Years 1998-99 [#66] is
GRANTED.
ENTERED this 14th day of July, 2011.
s/ Michael M. Mihm
Michael M. Mihm
United States District Judge

App. 25

Appendix C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
) E-FILED
) 30 March, 2012

UNITED STATES OF
AMERICA,
Plaintiff,
v.

)

) Case No. 10-1078

ROBERT K. ZABKA, et al.
Defendants,

)
)
)

ORDER
This matter is now before the Court on Plaintiff
the United States of America’s (“the Government”)
Motion for Partial Summary Judgment for Lien
Enforcement [114] and Defendants Brookstone
Hospitality Limited Partnership, Antiques Limited
Partnership, and ZFP Limited Partnership’s Motion
to Dismiss [128]. For the reasons set forth below, the
Government’s Motion [114] is GRANTED and the
Partnership Defendants’ Motion [128] is DENIED.
JURISDICTION
The Court has jurisdiction over this matter.,
pursuant to 26 U.S.C. §7602 and 7403, and 28 U.S.C.
§1340 and 1345.

App. 26

PROCEDURAL BACKGROUND
On March 2, 2010, the Government brought this
action to obtain judgment and to collect unpaid fed­
eral income tax assessments against the Zabkas for
the years 1996 through 1999, to obtain a declaration
that the federal tax liens associated with those as­
sessments attached to certain properties, and to fore­
close upon those federal tax liens. In its Amended
Complaint [93], the Government argues that federal
tax liens attached to the Zabkas’ ownership interests
in the Partnerships or, alternatively, that federal tax
liens attached directly to the real property which the
Zabkas transferred to the Partnerships. On February
25, 2011, this Court granted the Government’s Mo­
tion for Partial Summary Judgment and found that
the Zabkas are liable “based on unpaid assessments
of federal income tax, penalties, and interest, in the
amount of $834,476.00 for 1996 and $934,982.26 for
1997, each plus interest and other statutory addi­
tions accruing from and after April 15, 2010.” [64, 8].
On July 14, 2011, this Court granted the Govern­
ment’s Motion for Partial Summary Judgment and
found that the Zabkas are liable “for unpaid assess­
ments of income tax, penalties, and interest in the
amount of $570,569.52 for the year 1998 and in the
amount of $1,096,965.45 for the year 1999 plus inter­
est and other statutory additions accruing from and
after January 18, 2011.” [Ill, 12-13].
The Government now moves for Partial Sum­
mary Judgment for Lien Enforcement [114], seeking
a determination as a matter of law that federal tax
liens arose when the IRS made tax assessments
against the Zabkas and that those liens have at­
tached to all property and rights to property of the

App. 27

Zabkas. Notably, the Government concedes that it
“did not include [its] alternative contention” in its
Motion for Summary Judgment [114] - that federal
tax liens attached directly to the Zabkas’ real prop­
erty which they transferred to the Partnerships - but
that it “instead sought judgment only in [its] primary
contention, that the hens attached to and should be
enforced against the Zabkas’ ownership interests in
the partnerships, which are considered personal
property.” [126, 8]. To that end, the Government in­
dicates that it intends to request that this Court to
appoint a receiver to enforce those liens pursuant to
26 U.S.C. §7403(d). [126-1]. Defendants Brookstone
Hospitality Limited Partnership, Antiques Limited
Partnership, and ZFP Limited Partnership move to
dismiss the instant case pursuant to FED. R. CIV. P.
12(b)(7). The issues are fully briefed and this Order
follows.
STANDARD
Federal Rule of Civil Procedure 56(c) provides
that summary judgment is proper where “the plead­
ings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if
any, show that there is no genuine issue as to any
material fact and that the moving party is entitled to
a judgment as a matter of law.” See also Celotex
Corn, v. Catrett. 477 U.S. 317, 322-23, 91 L. Ed. 2d
265, 106 S. Ct. 2548 (1986). To determine whether
there is a genuine issue of material fact, courts con­
strue all facts in the light most favorable to the non­
moving party and draw all reasonable and justifiable
inferences in favor of that party. See Anderson v.
Liberty Lobby. Inc.. 477 U.S. 242, 255, 91 L. Ed. 2d

App. 28

202, 106 S. Ct. 2505 (1986).
FACTUAL BACKGROUND
The pending motions’ disposition largely revolves
around three points of fact: the Partnership Agree­
ments governing certain properties which, at one
point, were owned or held in trust for the Zabkas; the
Zabkas’ assessment dates for tax years 1996 through
1999; and Prairie State Bank & Trust’s (“Prairie
State”) interest in three of the aforementioned prop­
erties. The Court will address each area in turn.
Until October 3, 2000, the Zabkas owned record
title, or record title was held in a trust in their
names, to 10 properties.1 On that day, the Zabkas
entered into three limited partnership agreements;
these agreements state that the Zabkas were the
only general partners and the only limited partners
in Brookstone Hospitality Limited Partnership,2
Antiques Limited Partnership,3 the ZFP Limited
Partnership.4 All three Limited Partnerships’ agree­
ments5 were altered on November 13, 2003. The sole
change to the Agreements was that Dunamis, LLC
(“Dunamis”) was listed as the only general partner.
The Zabkas remained limited partners in each Part­
nership and each Agreement stated that Dunamis
had no ownership or capital interest in the Partner1 The properties are located in Charleston, Illinois: 18515 Chief
Road, 1441 7th Street, 1443 7th Street, 738 18th Street, 143638 9th Street, 1448 9th Street, 1725 Harrison Street, 17585
Harrison Street, and 17613 Harrison Street (collectively known
as “the Properties.”)
2 [114-6]
3 [114-8]
4 [114-10]
s See [114-7, 9, 11]

App. 29

ship, that Dunamis could not deduct partnership
losses, and that Dunamis would not receive a distri­
bution upon liquidation of the given Partnership.
See, e.g. [114-7 at 1ft 2.1 and 7.4]. Dunamis was al­
lowed a one percent share of profits; the Zabkas were
each allotted 49.5 percent share of profits and a 100
percent share or losses or capital interest. See, e.g.
[114-7 at 12],
This Court has previously determined that the
Zabkas were properly issued Notices of Deficiency for
the tax years at issue. Likewise, the Court addressed
the issue of when and how the Zabkas’ assessment
expiration date was extended. In doing so, the Court
found that on October 6, 2003, the Government prop­
erly assessed the Zabkas for unpaid income taxes,
penalties, and interest for years 1998 and 1999, and
that on August 9, 2004, the Government assessed the
Zabkas with respect to years 1996 and 1997. [64,
111]. The Zabkas asked this Court to reconsider its
finding, but the Court held that they “fail[ed] to pre­
sent any newly discovered evidence, any citation to
changed applicable law, or any novel and persuasive
argument regarding previous claims [concerning the
propriety of assessments made against them] they
have already advanced.” [115 at 3].
On October 3, 2003, the Coles County Recorder’s
Officer recorded a mortgage6 held by Prairie State for
both the 1436-1438 9th Street and 1448 9th Street
properties. On April 13, 2004, the Coles County
6 In its Response to the Government’s Motion for Summary
Judgment [118], Prairie State Bank indicates that it acquired
the mortgage for 1436-1438 9th Street and 1448 9th Street on
October 31, 2003. However, the Court’s review of the relevant
Mortgage reveals that it was recorded on October 3, 2003. See
[104-3].

App. 30

Recorder’s Office recorded Prairie State acquiring a
mortgage7 for the 18515 Chief Road property.
DISCUSSION
1.

The Government’s Motion for Summary
Judgment
In support of its Motion for Summary Judgment
[114], the Government submitted evidence of the
unpaid tax assessments against the Zabkas in the
form of Certificates of Assessments and Payments.
The Zabkas, Brookstone Hospitality Limited Part­
nership, Antiques Limited Partnership, and ZFP
Limited Partnership and Dunamis (“the Defendant
Partnerships,”) and Prairie State all object to sum­
mary judgment on various grounds. The Court con­
siders each party’s objections in turn.
a. The Zabkas’ Response to the Government’s
Motion for Summary Judgment
The Zabkas object to summary judgment on
three grounds. Turning to their first claim, the
Zabkas argue that the Government’s Amended
Complaint [93] must be dismissed and its Motion for
Summary Judgment [114] denied because “the
government did not name all persons having liens or
claiming any interest in the real property at issue in
this action.” [120, 2]. However, the Zabkas go no
further on this point: they do not include relevant
case law or supplement their argument beyond citing
to 26 U.S.C. § 7403(b). The Seventh Circuit has made
abundantly clear in an unbroken series of cases that
because the Zabkas fail to develop their argument,
7 [104-2].

App. 31

they have forfeited it. See e.g., Marcatante v. City of
Chicago. 657 F.3d 433, 444 (7th Cir. 2011) (holding
that plaintiffs’ “passing reference [to a due process
claim]... is completely undeveloped and so is
waived.”); White Eagle Co-op. Ass’n v. Conner. 553
F.3d 467, 476 (7th Cir. 2009)(“... it is not the province
of the courts to complete litigants’ thoughts for them,
and we will not address this undeveloped
argument.”); United States v. Berkowitz. 927 F.2d
1376, 1384 (7th Cir.l991)(“We repeatedly have made
clear that perfunctory and undeveloped arguments,
and arguments that are unsupported by pertinent
authority, are waived (even where those arguments
raise constitutional issues).”). The Court hereby
rejects the Zabkas’ argument as it relates to
summary judgment on this ground.
The Zabkas next claim that because they were
not properly assessed, were not sent notices of defi­
ciency, and were not sent notice and demand for
payment, that summary judgment should be denied.
As indicated above, this Court has previously consid­
ered and rejected these arguments in its previous
Orders regarding Summary Judgment [64, 111] and
the Zabkas’ Motion to Reconsider. [137]. As such, the
Court declines to revisit the issue.
Lastly, the Zabkas argue that the Government’s
request for the appointment of a receiver should be
denied because the Government failed to properly
attach a certificate that the appointment of a re­
ceiver was in the public interest. In its Response
[126], the Government concedes that it did not ap­
pend said certificate to its Amended Complaint, but
attached it as an exhibit to its Response. Accordingly,
the Court determines that the Zabkas have not sub­
mitted any disputed genuine issue of material fact

App. 32

that remain and finds that the Zabkas’ objections to
the Government’s motion for summary judgment are
meritless. The Government’s Motion [114] is
GRANTED with respect to the Zabkas.
b. The Defendant Partnerships’ Response to
the Government’s Motion for Summary
Judgment
The first argument in the Defendant Partner­
ships’ Response [119] nearly verbatim tracks the first
argument in the Zabkas’ Response. [120]. Like the
Zabkas, the Partnerships argue that the Govern­
ment’s motion for summary judgment should be de­
nied because it did not name all persons having liens
or claiming any interest in the real property at issue
in this action, in accordance with 26 U.S.C. § 7403(b).
Aside from citing to the relevant statute and making
a cursory statement that “the government did not
name all persons having hens or claiming any inter­
est in the real property” [119, 10], the Partnerships’
claim is not supported by argument or evidence. The
Court finds that the Defendant Partnerships’ argu­
ment is perfunctory and undeveloped. Accordingly,
this Court will not consider it.
The Defendant Partnerships also assert that
even if the Government were to have named all re­
quired parties, this Court should not grant summary
judgment because federal tax liens did not attach to
the sixteen pieces of real property or the general
partnership interest at issue. The Court addresses
each argument in turn.
When the government makes assessments and a
taxpayer’s taxes remain unpaid after notice and de­
mand, federal tax liens attach to “all property and
rights to property, whether real or personal” of that

App. 33

taxpayer. 26 U.S.C. §§ 6321, 6322. Tax liens are
“continuing” and thus attach to all property owned
by a taxpayer during the life of the lien. Glass City
Bank v. United States. 326 U.S. 265, 267, 66 S. Ct.
108, 90 L. Ed. 56, 1945 C.B. 330 (1945). Because the
Court has already found that tax hens attached to
the Zabkas’ property when assessments were made
on October 6, 2003, and again on April 13, 2004, the
question becomes whether the Government has satis­
fied its burden of establishing that the property in
question belonged to the Zabkas.
To avoid the Government’s asserted lien, the De­
fendant Partnerships rely on Section 6323(h) of the
Internal Revenue Code (“I.R.C.”) which provides that
an IRS lien is not valid with respect to certain bona
fide “purchasers.”8 The Partnerships argue that they
gave the Zabkas “adequate and full consideration in
money or money’s worth” within the meaning of §
6323(h) in the form of a limited partnership interest
in exchange for specific pieces of real property. The
Partnerships argue that the limited partnership in­
terest given to the Zabkas “was equal to the value of
the real estate.” [119, 12]. In its Response, the Gov­
ernment correctly notes that the Partnerships’
argument is irrelevant because its “motion for partial
summary judgment does not seek enforcement of the
federal tax liens against any such [real] property”
[125, 6] but rather seeks a determination that those
liens have attached to all personal property and
rights to property of the Zabkas, including all of their
8 The I.R.C. defines purchases as “a person who, for adequate
and full consideration in money or money's worth, acquires an
interest (other than a lien or security interest) in property
which is valid under local law against subsequent purchasers
without actual notice.” 26 USC § 6323(h)(6)

App. 34

ownership interests in the Partnerships. Because the
Partnerships attempt to respond to an argument that
is not currently before the Court, the Court hereby
finds this point inapplicable to the instant motion for
summary judgment.
The Partnerships also argue that the Govern­
ment’s motion for summary judgment fails because
Dunamis acquired its general partnership interest
before the Government gave notice of its liens and,
therefore, qualifies as a “purchaser” within the
meaning of 26 U.S.C. § 6323(h). However, the Part­
nerships go no further in advancing their argument
either with evidence or with argument. Instead, they
merely state:
“Simply put, Dunamis, LLC acquired its gen­
eral partnership interest in the ... part­
nerships and [the partnerships] acquired an
interest in the sixteen parcels of real
property at issue before the Government
gave notice of its alleged liens pursuant to
subsection (f) of §6323.” Id. at 10.
“The Zabkas’ Illinois limited partnership
interest is a security.” Id- at 12.
“The Zabkas [sic] limited partnership
interest... clearly constitutes ‘money or
money’s worth.’ ” IdThe Court finds that these cursory statements,
unsupported by argument or buoyed by reference to
evidence, do not fulfill the Seventh Circuit’s mandate
that perfunctory and undeveloped arguments are
waived. In any event, the Court notes that the

App. 35

parties do not dispute that the amended and restated
partnership agreements refer to Dunamis as a
“profits-only partner” which would contribute its
services in exchange for a share of the profits but
would receive no ownership in the partnership. See,
e.g. [114-7]. The Partnerships fail to dispute any
genuine issue of material fact by referencing record
evidence regarding whether the property in question
belonged to the Zabkas. Accordingly, the Court
hereby finds that as of the dates of their
assessments, the Zabkas’ property and rights to
property included all of their ownership interests in
Brookstone
Hospitality
Limited Partnership,
Antiques Limited Partnership, and ZFP Limited
Partnership.
Finally, the Partnerships argue that even if the
federal tax liens attach to the property in question,
then the Government cannot dissolve the
Partnerships or sell their property pursuant to the
amended and restated partnership agreements and
Illinois law. Again, the Partnerships’ argument is
completely undeveloped - they fail to substantiate
their claim with any evidence or cite to any
controlling case law. As such, their argument is
waived. The Court hereby rules that the
Government’s Motion [114] is GRANTED as to the
Partnership Defendants.
c.

Prairie State Bank’s Response to the
Government’s Motion for Summary
Judgment
Prairie State’s Response [118] explains that it
does not oppose the Government’s Motion [114]
insofar as it seeks relief against the Zabkas and the
Partnership Defendants. However, Prairie State does

App. 36

dispute the Government’s Motion “to the extent that
it can be construed to claim that [the Government’s]
tax liens have priority over [Prairie State’s] mortgage
liens on property at 18515 Chief Road, 1436-1438 9th
Street, and 1448 9th Street, Charleston Illinois.”
[118, 4]. In support of its Response, Prairie State
submits the mortgages and relevant renewal notes
for the 1436-1438 9th Street and 1448 9th Street
properties and the 18515 Chief Road property. These
properties were recorded in the Coles County
Recorder’s Officer on October 3, 2003, (for the two
9th Street properties), and on April 13, 2004, (for the
Chief Road property). [118-1]. The Government’s
reply to Prairie State asserts that it “does not take
the position that federal tax liens have priority over
[Prairie State’s] mortgage liens with respect to any
specific pieces of real property.” [122, 3]. Accordingly,
the Court finds that the issue of lien priority is not
before it at this time and that Prairie State’s
objection is irrelevant to the instant motion for
summary judgment. However, the Court will set a
status hearing with respect to the issue of lien
priority within 21 days of this Order being entered.
2.

The Partnership Defendants’ Motion to
Dismiss
Defendants Brookstone Hospitality Limited Part­
nership, Antiques Limited Partnership, and ZFP
Limited Partnership move to dismiss this case with
prejudice and without leave to amend pursuant to
FED. R. CIV. P. 12(b)(7). The Defendant Partner­
ships claim that this case should be dismissed be­
cause the Government’s Amended Complaint [93]
fails to name all persons having hens upon or claim­
ing any interest in the real property identified there-

App. 37

in as required by 26 U.S.C. § 7403(b).
Initially, the Court notes that Rule 12(b)(7) is an
improper vehicle for the Partnerships to pursue
disposing of this case. The Northern District of
Illinois has held that “it is hornbook law that Rule 12
motions must be filed before filing a responsive
pleading, see Wright & Miller, Federal Practice &
Procedure: Civil 2d § 1361 (Tf a party decides to raise
any of the seven enumerated defenses [in Rule 12] by
motion, ‘it shall be made before pleading if a further
pleading is permitted.”) (quoting Fed. R. Civ. Pro.
12(b)), which by necessity must also precede filing a
summary judgment motion.” Holy Cross Hosp. v.
Rankers Life & Cas. Co.. 2002 U.S. Dist. LEXIS
19643, 5-6 (N.D. Ill. Oct. 11, 2002). The Partnerships
offer no reason why this Court should deviate from
the plain language of FED. R. CIV. P. 12(b) and, con­
sequently, their Motion [128] is DENIED.
CONCLUSION
The Court hereby finds that federal tax liens arose
when the IRS made tax assessments against the
Zabkas and that those liens have attached to all per­
sonal property and rights to property of the Zabkas,
including all of their ownership interests in the
Brookstone Hospitality Limited Partnership, An­
tiques Limited Partnership, and ZFP Partnership.
The Court will consider appointing a Receiver
pursuant to 26 U.S.C. §7403(d) upon a proper motion
and certificate being tendered by the Government
within 21 days of this Order. For the aforementioned
reasons, the Government’s Motion [114] is
GRANTED and the Defendant Partnership’s Motion
[128] is DENIED.

App. 38

Entered this 30th day of March, 2012.
Is/ Michael M. Mihm
Michael M. Mihm
United States District Judge

App. 39

Appendix D
UNITED STATES DISTRICT COURT
for the CENTRAL DISTRICT OF ILLINOIS
) FILED
) June 29 2012

UNITED STATES OF
AMERICA,

)

) Case No. 10-1078

vs.

)

ROBERT K. ZABKA, DEBRA
ZABKA, BROOKSTONE
HOSPITALITY LIMITED
PARTNERSHIP, ANTIQUES
LIMITED PARTNERSHIP,
ZFP LIMITED PARTNERSHIP
PRARIE STATE BANK &
TRUST, N.A., FIRST MIDILLINOIS BANK & TRUST,
N.A., BANK OF AMERICA,
N.A., ELEOS, LLC,
MARSHALL BRENT ZABKA
UNKNOWN

)
)
)
)
)
)
)
)
)
)
)

)
)

JUDGMENT IN A CIVIL CASE
DECISION BY THE COURT. This action came
before the Court. The issues have been heard and a
decision has been rendered.
IT IS ORDERED AND ADJUDGED that
Judgment is entered in favor of the Plaintiff.
Defendants’ motion [149] and [150] are DENIED as
untimely. CASE TERMINATED.

App. 40

Dated: 6/29/12
s/ Pamela E. Robinson
Pamela E. Robinson
Clerk, U.S. District Court

App. 41

Appendix E
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
) E-FILED
) 11 September 2012

UNITED STATES OF
AMERICA,
Plaintiff,
v.

)

) Case No. 10-1078

ROBERT K. ZABKA, et al.
Defendants,

)
)
)

ORDER
This matter is now before the Court on Plaintiff
the United States of America’s (“the Government”)
Motion for Appointment of Receiver [#145]. For the
following reasons, the Government’s Motion [#145] is
GRANTED.

BACKGROUND
The Government brought this lawsuit to obtain
judgment and to collect unpaid federal income tax
assessments against the Zabkas for years 1996
through 1999, to obtain a declaration that the federal
tax liens associated with those assessments attached
to all property and rights to property of Robert and
Debra Zabka (“the Zabkas”), and to foreclose upon
those federal tax hens. During the course of this
litigation, the Court has made the following findings
relevant to the Government’s instant motion:

App. 42

October 3, 2000

October 6, 2003

November 13,
2003

August 9, 2004

Zabkas entered into three
Limited Partnership
Agreements1
Assessments made for unpaid
incomes taxes, penalties, and
interest for tax years 1998 and
1999; federal tax liens arose
Limited Partnership
Agreements are amended —
sole change was to list
Dunamis, LLC as the only
general partner2
Assessments made for unpaid
incomes taxes, penalties, and
interest for tax years 1996 and
1997; federal tax liens arose

On March 30, 2012, this Court granted the
Government’s Motion for Summary Judgment [#144],
finding that federal tax liens arose when the Internal
Revenue Service (“IRS”) made tax assessments
against the Zabkas and that those liens attached to
all personal property and rights to property of the
1 These agreements state that the Zabkas were the only general
partners and the only limited partners in Brookstone
Hospitahty Limited Partner-ship, Antiques Limited Partner­
ship, the ZFP Limited Partnership (“the Limited Partnership
Defendants”)
2 The Zabkas remained limited partners in each Partnership
and each Agreement stated that Dunamis had no ownership or
capital interest in the Partnership, that Dunamis could not de­
duct partnership losses, and that Dunamis would not receive a
distribution upon liquidation of the given Partnership. Dunamis
was allowed a one percent share of profits; the Zabkas were
each allotted 49.5 percent share of profits and a 100 percent
share or losses or capital interest.

App. 43

Zabkas, including all of their ownership interests in
the Limited Partnerships. As of October 6, 2003, the
Zabkas’ personal property and rights to property
included their 100 percent ownership interest in- the>
Limited Partnerships.
On April 20, 2012, the Government filed its
Motion for Appointment of Receiver [#145] and
supported it with proper certification [#145-1]. The
Zabka Defendants and the Dunamis and Limited
Partnership Defendants object to the appointment of
a receiver and also dispute what procedures govern
the management and liquidation of the Zabkas’
property. The issue has been exhaustively briefed
and this Order follows.
DISCUSSION
1.

Does this Court have the authority to
appoint a receiver in equity?
In the instant case, the Government seeks the
appointment of a receiver with the powers of a
receiver in equity pursuant to 26 U.S.C. §§ 7403(d)
and 7402(a). In relevant part, the Internal Revenue
Code provides:
The district courts of the United States at
the instance of the United States shall have
such jurisdiction to make and issue... orders
appointing receivers, and such other orders
and processes, and to render such judgments
and decrees as may be necessary or
appropriate for the enforcement of the
internal revenue laws. The remedies hereby
provided are in addition to and not exclusive
of any and all other remedies of the United

App. 44

States in such courts or otherwise to enforce
such laws.
26 U.S.C. § 7402(a) (2012). The Internal Revenue
Code also provides that a court “may appoint a recei­
ver to enforce the lien, or, upon certification by the
Secretary during the pendency of such proceedings
that it is in the public interest, may appoint a receiv­
er with all the powers of a receiver in equity.” 26
U.S.C. § 7403(d) (2012).
The Limited Partnership and Dunamis Defen­
dants oppose the appointment of a receiver and, in so
doing, properly classify the language used to describe
the court’s power to appoint a receiver in §§ 7402(a)
and 7403(d) as discretionary. In doing so, the Limited
Partnership and Dunamis Defendants cite to Harris
N.A. v. United States, 2011 U.S. Dist. LEXIS 22066
(N.D. Ill. 2011) wherein that Court noted “nothing in
the language of these statutes requires the court to
appoint a receiver... rather than proceed with a
judicial sale.” In keeping with their past submissions
to the Court, the Defendants did not bolster the
citation with any argument of their own. However,
the Defendants’ failure to properly articulate their
position of little consequence because it does not
follow that because this Court’s ability to appoint a
receiver is discretionary, that the Court should not
do so in the instant case.
The Limited Partnership and Dunamis Defen­
dants also argue that the appointment of a receiver
requires a showing that the underlying assets are in
jeopardy, citing to this Circuit’s opinion in In re
McGaughey. In that case, the Seventh Circuit found
that when a § 7403(d) request for appointment of a
receiver is made, the Government “needs only to

App. 45

make a prima facie showing that a substantial tax
liability probably exists and that the Government’s
collection efforts may be jeopardized if a receiver is
not appointed.” In re McGaughey, 24 F.3d 904, 907
(7th Cir. 1994). The Limited Partnership and
Dunamis Defendants claim that because there has
been no such showing of jeopardy with respect to the
underlying real properties in this case that the
appointment of a receiver should be denied.
The Government takes issue with this reading of
In re McGaughey, stating that there “the Seventh
Circuit merely described the standard applicable for
a temporary receivership... [and additionally] did not
consider § 7402(a), which is a separate basis for the
United States’ motion in the present case.” [#167 at
5]. Furthermore, the Government argues that §
7402(a) “has been construed broadly to allow courts
the full panoply of remedies necessary to effectuate
the enforcement of the federal tax laws” [#167 at 8]
(citing United States v. Bartle, 2002 WL 75437*4
(S.D. Ind. Jan 16, 2002)) and, as such, the statute
empowers the Court to appoint a receiver in this
case.
Additionally, the Government cites to United
States v. Rodgers 461 U.S. 677, 707, n. 36 (1983) to
argue that the appointment of a receiver under §
7403(d) is appropriate where “the collector of internal
revenue...has reason to believe the taxpayer will not
be able to meet his obligations and where the public
interest will be prejudiced by resorting to the
provisions in the present law, for distraint on the
taxpayer’s assets.” Indicating the Zabkas’ tax
liability of “more than $3.4 million in unpaid income
tax debts... [and their] unbending refusal to pay
those debts... [which] continues to date” the

App. 46

Government concludes that “[c]learly then, the
Zabkas have not been meeting their obligations and
the United States has good reason to believe that
they will not be able to meet their tax obligations.”
[#167 at 8]. In light of its tendered § 7403(d)
certification [#145-1] and its argument as outlined
above, the Government maintains it has met the
requirements for the appointment of a receiver
pursuant to §7403(d).
Initially, the Court finds that given the facts of
this case and the timing of the receivership request,
there is no need for it to make a jeopardy determina­
tion. Unlike In re McGaughy, this litigation has ef­
fectively ended; judgment was entered in favor of the
Government and the only remaining task is for the
Government’s tax liens to be enforced against the
Zabkas’ property and rights to property. In this post­
judgment context, the Zabkas cannot now succeed on
the merits of arguing their tax liability and there is
no risk of harm to the Defendants. As indicated
above, the Court previously found that the Govern­
ment’s liens attached to all property and rights to
property of the Zabkas when it assessed them for tax
years 1998 and 1999 on October 6, 2003. At that
time, the Zabkas’ property and rights to property in­
cluded their 100 ownership interest and 100 percent
partnership interest in the Limited Partnerships. Ac­
cordingly, the Court declines to make a jeopardy
finding.
Because it is within this Court’s broad statutorily
prescribed purview to do so, the Court hereby
GRANTS the Government’s Motion for Appointment
of Receiver [#145]. The Court now turns to the terms
of the receivership, namely how the Receiver will
properly marshal, manage, and liquidate the afore-

App. 47

mentioned assets.
2.

■*

Once appointed, what procedures must the
receiver follow in managing and liquidating
the assets?
In their brief [#178] addressing what procedures
a receiver must follow in managing and operating the
Zabkas’ property and rights to property, the
Dunamis and Limited Partnership Defendants argue
that 28 U.S.C. § 959(b) compels the Government to
observe state law — specifically, 805 Ill. Comp. Stat.
215/703 which governs the rights of a creditor of a
partner or transferee under Illinois law. Defendants
claim that Illinois state law is unequivocal in that it
“provides the exclusive remedy by which a judgment
creditor of a partner or transferee may satisfy a
judgment out of the judgment debtor’s transferable
interest,” see 805 Ill. Comp. Stat. 215/703, and that
the “exclusive remedy” is a charging order. Further­
more, Defendants contend that Congress has the un­
ambiguous authority to “withhold from District
Courts the power to authorize receivers in conserva­
tion proceedings to transact local business, contrary
to state statues obligatory on all others.” Gillis v.
California, 293 U.S. 62, 66 (1934). Defendants’ re­
maining arguments are ones which, admittedly, they
have previously raised and are inappropriate to re­
consider at this post-judgment stage of litigation.
(“The LP’s and Dunamis raised [the issue of
Dunamis perfecting its security interest in the tax­
payers’ property prior to the Government filing its
Notice of Federal Tax Lien] in their Joint Motion to
Dismiss (ECF 128)... the LP’s and Dunamis asserted
the foregoing arguments in their Response (ECF
119)...and [their] Motion for Sanctions (ECF 135)...

App. 48

[i]n addition, the arguments-were raised in Dunamis
and the LP’s Response (119).”) [#178, 14-5].
The Court first turns to the language of 28
U.S.C. § 959(b) which provides:
[A] trustee, receiver or manager appointed in
any cause pending in any court of the United
States, including a debtor in possession, shall
manage and operate the property in his pos­
session as such trustee, receiver or manager
according to the requirements of the valid
laws of the State in which such property is
situated, in the same manner that the owner
or possessor thereof would be bound to do if
in possession thereof.
28 U.S.C. § 959(b). Defendants argue that the plain
language of the statute, combined with the Supreme
Court’s decision in Gillis v. California, require the
receiver to obtain a charging order to satisfy the
Government’s judgment. In that case, the Supreme
Court held that “if the receiver cannot continue to
carry on the Company’s business according to the
plain direction of Congress, he must pursue some
other course permitted by law.” 293 U.S. at 66. How­
ever, the issue decided in Gillis — that a lower court
could not exempt a receiver from valid state laws
that regulate how a company was to be safely con­
ducted - is not the issue now before the Court.
Because the Court has already determined that the
appointment of a post-judgment receiver is appropri­
ate, the remaining question is how the receiver is to
manage, operate, and necessarily liquidate the
Zabkas’ interests in the Limited Partnerships in or­
der to satisfy the Government’s liens against that

App. 49

property and interest in property.
In considering the import of § 959(b), the Sev­
enth Circuit held “just as an owner of possessor of
property is required to comply with state law, so too
must a receiver comply with state law in the ‘man­
agement and operation’ of the receivership property
in his possession.” SEC v. Wealth Mgmt. LLC, 628
F.3d 323, 334 (7th Cir. 2010). However, the Seventh
Circuit went on to hold “[m]odern courts have... con­
cluded that § 959(b) does not apply to liquidations.”
Id. (citing In re Valley Steel Prods. Co., 1.57 B.R. 442,
447-49 (Bankr. E.D. Mo. 1993) (holding § 959(b) does
not apply to liquidations and citing cases); In re N.P.
Mining Co., 963 F.2d 1449, 1460 (11th Cir. 1992) (“A
number of courts have held that section 959(b) does
not apply when a business’s operations have ceased
and its assets are being liquidated.”); Saravia v. 1736
18th St., N.W., LP, 844 F.2d 823, 827 (D.C. Cir. 1988)
(viewing the statute as applying only to operating
businesses, not ones that were in the process of being
liquidated)). The Seventh Circuit agreed with these
interpretations of the statute. Id.
To the extent that the appointed receiver must
manage and liquidate the Limited Partnerships, he
must do so in a manner which does not violate state
law governing their operation. See In re Wall Tube &
Metal Prods. Co., 831 F.2d 118, 122 (6th Cir. 1987)
(section 959(b) compels a receiver to comply with
state public health and safety laws when liquidating
receivership property). This Court hereby finds that
the facts of the instant case are more in line with
SEC v. Wealth Mgmt. LLC than Gillis or In re Wall
Tube: in this case, the remaining task for the receiver
is to inventory the Zabkas’ property and interest in
property and manage the Limited Partnerships as

App. 50

necessary in order to arrange for the sale or other
liquidation of those assets to satisfy the Zabkas tax
liabilities. Because Defendants make no claim (and
indeed cannot now make a prospective claim) that
the receiver has violated Illinois state law in its
management and operation of the Limited Partner­
ships and their underlying assets, the Court finds
there to be no legitimate objection to the Govern­
ment’s Proposed Order Appointing a Receiver [#1453].
Alternatively, the Court finds that there is no
conflict between the Proposed Order and 805 Ill.
Comp. Stat. 215/703. That statute, part of the Illinois
Uniform Limited Partnership Act, governs the rights
of a creditor of a partner or transferee and provides,
in relevant part:
(a) On application to a court... by any judg­
ment creditor of a partner or transferee, the
court may charge the transferable interest of
the judgment debtor with payment of the un­
satisfied amount of the judgment with inter­
est. ... (b) A charging order constitutes a lien
on the judgment debtor’s transferable inter­
est. ... (e) This Section provides the exclusive
remedy by which a judgment creditor of a
partner or transferee may satisfy a judgment
out of a judgment debtor’s transferable inter­
est.
§ 805 Ill. Comp. Stat. 215/703. As outlined above,
this Court has previously determined that the Gov­
ernment’s liens attached to all property and rights to
property of the Zabkas at the time of their October 6,
2003 assessment tax years 1998 and 1999. At that

App. 51

time, the Zabkas’ property and rights to property in­
cluded their 100 percent ownership interest in the
Limited Partnerships. The state law statute at issue
describes a charging order as the exclusive remedy
“by which a judgment creditor of a partner or trans­
feree may satisfy a judgment out of a judgment
debtor’s transferable interest.” 805 Ill. Comp. Stat.
215/703(e) (emphasis added). The plain language of
that statute - which refers to a judgment creditor of
an individual partner — demonstrates that it was de­
signed to protect other partners in a partnership
when one, but perhaps not all, of the partners had
become encumbered with a judgment creditor. In
that respect, the Court finds that the state statute is
irrelevant to the circumstances of the instant case
because the Government’s federal tax lien attached
to the Zabkas’ 100 percent ownership interest of the
Limited Partnerships. Accordingly, the Court finds
there to be no conflict between the Government’s
Motion [#145] and 805 Ill. Comp. Stat. 215/703.
As indicated above, two separate assessments
were made for tax years 1998 and 1999 and 1996 and
1997. If assets remain after federal tax liens associ­
ated with years 1998 and 1999 have been enforced,
the Receiver is hereby directed to submit a report de­
tailing that surplus to the Court. In its report, the
Receiver would: (1) report any assets remaining after
the tax liability for years 1998 and 1999 has been
satisfied and (2) address any proposed further en­
forcement of liens associated with tax years 1996 and
1997.
CONCLUSION
For the aforementioned reasons, the Govern-

App. 52

merit’s Motion for Appointment of a Receiver [#145]
is GRANTED. The Government is DIRECTED to
submit a supplemental Proposed Order that incor­
porates the above wording within 14 days.
Entered this 11th day of September, 2012. ,
Is/ Michael M. Mihm
Michael M. Mihm
United States District Judge

App. 53

Appendix F
Filed: 07/28/2014
In the
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Nos. 12-2998, 12-3380, 13-1113, 13-2918, 14-1266
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
and
TIMOTHY LOUIS BERTSCHY, Receiver,
Appellee,
v.
ANTIQUES LIMITED PARTNERSHIP, et al.,
Defendants-Appellants.
Appeals from the United States District Court
for the Central District of Illinois.
No. l:10-cv-01078 — Michael M. Mihm, Judge.
SUBMITTED JUNE 27, 2014 —
DECIDED JULY 28, 2014
Before POSNER, KANNE, and TINDER, Circuit
Judges.
POSNER, Circuit Judge. Before us are five re­
lated appeals, presenting both jurisdictional issues
and issues of federal tax procedure.
The principal defendants are Robert and Debra
Zabka and partnerships they controlled and trans-

App. 54

ferred property to. The government sued to enforce
tax assessments against the Zabkas and tax liens
against their property and against property of the
partnerships. The district judge ruled that the as­
sessments (amounting to several million dollars)
were valid and likewise the tax liens, and that when
the Internal Revenue Service had made the assess­
ments the liens had attached to all the Zabkas’ per­
sonal property and to all their rights to property, in­
cluding their ownership interests in the partner­
ships. In the light of these rulings the government
filed a motion for the appointment of a receiver who
would manage the partnerships and sell their assets
to enable the assessments to be satisfied.
That motion was filed in April of 2012. In June
the court ordered briefing of the motion, denied mo­
tions by the defendants to reconsider the court’s cal­
culation of the unpaid assessments, and directed the
court clerk to enter judgment in the case. The clerk
entered an order that is captioned “Judgment in a
civil case” and states: “Judgment is entered in favor
of the Plaintiff.” The docket entry adds: “CASE
TERMINATED.” The partnership defendants filed a
notice of appeal.
Whoever made the docket entry was wrong. The
case had not been terminated. The judgment was not
a final judgment, because the receiver hadn’t been
appointed and thus the complete relief to which the
prevailing party was entitled had not been ordered.
See Kerr-McGee Chemical Corp. v. Lefton Iron &
Metal Co., 570 F.3d 856, 857 (7th Cir. 2009);
Buchanan v. United States, 82 F.3d 706, 708 (7th
Cir. 1996). In fact, it wasn’t a “judgment” at all, be­
cause it neither dismissed the suit nor provided any
relief to the plaintiff. It clearly was not an appealable

App. 55

order.
In September 2012, however, the district court
granted the motion to appoint a receiver and directed
the goverment to file a proposed order appointing
one. The Zabkas filed a notice of appeal from the
order granting the motion. That appeal was prema­
ture too. Although an interlocutory order appointing
a receiver is immediately appealable, 28 U.S.C. §
1292(a)(2), the September order was not the ap­
pointment of a receiver, but rather a direction to the
government to propose a receiver for the judge to
appoint. The government complied and in November
the judge ordered the appointment of the receiver
proposed by the government. The partnership de­
fendants filed a timely notice of appeal from that
order. In form it was an amendment to the Zahkas’
earlier notice of appeal from the August 2012 order,
but in substance it was a new notice of appeal and
was as-signed a new docket number.
The defendants’ appeal from the receiver’s ap­
pointment was thus their third appeal. The fourth
was an appeal they filed in August 2013 challenging
the district court’s approval of property sales by the
receiver, and the fifth, filed in February 2014, was an
appeal from an order awarding interim compensation
to the receiver. We have, as we’ll explain, no
jurisdiction over those two appeals.
We do have jurisdiction over the third appeal,
the appeal from the appointment of the receiver. The
appointment ended the merits phase of the litigation
while kicking off a postjudgment collection proceed­
ing. To understand this critical distinction, imagine a
simple suit for damages. The original proceeding
ends with a $1 million judgment for the plaintiff.
That’s it; case over. But suppose the defendant

App. 56

doesn’t pay, saying he has no money. The plaintiff
can initiate a postjudgment collection proceeding in
which he can ask a receiver (if one has been ap­
pointed) both to determine the defendant’s ability to
pay the judgment, and to collect on the plaintiffs be­
half as much of the judgment as he can. The collec­
tion proceeding would not affect the finality of the
earlier damages judgment, a final judgment appealable under 29 U.S.C. § 1291. But the judgment con­
cluding the collection proceeding would likewise be
an appealable final judgment. In re Joint Eastern &
Southern Districts Asbestos Litigation, 22 F.3d 755,
760 (7th Cir. 1994); Resolution Trust Corp. v. Ruggi­
ero, 994 F.2d 1221, 1224-25 (7th Cir. 1993); Central
States, Southeast & Southwest Areas Pension Fund v.
Express Freight Lines, Inc., 971 F.2d 5 (7th Cir.
1992); Armstrong v. Schwarzenegger, 622 F.3d 1058,
1064—65 (9th Cir. 2010); Thom-as u. Blue Cross &
Blue Shield Ass’n, 594 F.3d 823, 829 (11th Cir. 2010).
As succinctly explained in the Armstrong case, “ap­
peals courts have jurisdiction over post-judgment or­
ders, such as a district court might enter pursuant to
the jurisdiction it has retained to enforce a prior or­
der.” 622 F.3d at 1064. While from the standpoint of
the district court a postjudgment proceeding is part
of the original proceeding, from the appellate court’s
standpoint the judgment awarding the plaintiff relief
and the final order in the collection proceeding are
separate final orders both appealable therefore under
section 1291.
The purported judgment terminating the case in
June 2012 had not been a final judgment, because an
issue in that proceeding — the appointment of a re­
ceiver, a critical component of the relief sought by the
government — had remained pending. But once the

App. 57

appointment was made, all the issues presented in
the litigation had finally been re-solved, and the fact
that collection problems might require further pro­
ceedings in the district court did not detract from the
finality and therefore appealability of the judgment.
But the fourth appeal in this case — the one chal­
lenging the district court’s approval of property sales
by the receiver — was from an interlocutory order in
the postjudgment collection proceeding and thus is
not within our jurisdiction. This is so even though, as
we said, an interlocutory order appointing a receiver
is appealable, as is an interlocutory order “refusing
to wind up receiverships or to take steps to accom­
plish the purposes thereof, such as directing sales or
other disposals of property.” 28 U.S.C. § 1292(a)(2).
Parties in other cases have argued that this addi­
tional statutory language authorizes appeals from
orders en route to winding up the receivership, which
could include the sale order in the collection phase of
this case. But that would both strain the statutory
language and make anything the receiver did ap­
pealable immediately, which could flood the courts of
appeals with interlocutory appeals. We therefore
agree with the courts that have held that appellate
jurisdiction over interlocutory orders involving re­
ceivers is limited to the three types of order specified
in section 1292(a)(2): orders appointing a receiver,
orders refusing to wind up a receivership, and orders
refusing to take steps to accomplish the purposes for
winding up a receivership. See Commodity Futures
Trading Comm’n v. Walsh, 618 F.3d 218, 225 n. 3 (2d
Cir. 2010); Plata v. Schwarzenegger, 603 F.3d 1088,
1099 (9th Cir. 2010); SEC v. Black, 163 F.3d 188,
194-95 (3d Cir. 1998); State Street Bank & Trust Co.
v. Brockrim, Inc., 87 F.3d 1487, 1490—91 (1st Cir.

App. 58

1996).
Once the district court appointed the receiver,
the defendants’ focus shifted from objecting to a re­
ceiver’s being appointed (remember their appeal from
the grant of the government’s motion to appoint a re­
ceiver) to objecting to specific actions that the
receiver took after his appointment. But the defen­
dants also wanted to make sure that their challenges
to the judge’s prior orders were properly before this
court. For that they needed to appeal from the
appointment of the receiver, a final judgment that
thus brought the orders challenged in the first three
appeals — the two appeals filed before the district
judge appointed the receiver and the third filed im­
mediately after — within our appellate jurisdiction,
though only by virtue of the third appeal, which
being from a final judgment made the two prior in­
terlocutory orders challengeable in that appeal. The
appellate court can reverse a final judgment on the
basis of material errors committed by the district
judge at any stage in the proceeding in the district
court.
The principal argument that the defendants
make regarding those orders was that the Zabkas •
were just limited partners, equivalent to sharehold­
ers, and therefore not subject to a tax lien against
partnership property. The general partner is a com­
pany called Dunamis LLC. A hen on property of a
debtor who happens to be a partner (whether or not a
lim-ited partner) in a partnership does not attach to
property held by the partnership, IRS Revenue Rul­
ing 73-24 (1973), but it can attach to the partner’s
ownership interest. United States v. Craft, 535 U.S.
274, 285-86 (2002); United States v. Worley, 213 F.2d
509, 512-13 (6th Cir. 1954). The liens in this case at-

App. 59

tached to the Zabkas’ ownership interests in the
partnerships, thus entitling the receiver to sell those
interests in order to realize cash from the liens to •
satisfy the Zabkas’ tax obligations.
It’s true that the district court authorized the
receiver to enforce the government’s tax lien by sell­
ing any assets belonging to the partnerships (though
the court ordered the receiver to satisfy the partner­
ships’ other valid obligations before using money
from the sale of the assets to pay the Zabkas’ tax
debt), and that there is a difference between partner­
ship assets and the share of those assets owned by
particular partners. But that difference evaporates in
this case. The Zabkas are the only owners. Dunamis
LLC, the general partner, has no ownership interest;
the partnership agreements “specified that Dunamis
was a profits-only partner which would receive no
ownership or capital interest in the Limited Partner­
ships.”
The fourth and fifth appeals are, respectively,
from the district court’s order of August 2013 ap­
proving property sales by the receiver and from the
order of December 2013 granting the receiver fees for
and expenses of his work. The December order
granted only interim compensation; the receiver had •
not completed his work — the collection proceeding
was continuing. An order of interim compensation is
an unappealable interlocutory order. SEC v. Black,
supra, 163 F.3d at 194-95; SEC v. American Princi­
pals Holdings, Inc., 817 F.2d 1349, 1350-51 (9th Cir.
1987); cf. Lac Courte Oreilles Band of Lake Superior
Chippewa Indians v. Wisconsin, 829 F.2d 601, 602
(7th Cir. 1987) (per curiam). The receiver’s work con­
tinued after the December order, which means that
the August order was interlocutory as well; if he

App. 60

hadn’t completed his work of recovering money for
the payment of the taxes by December, obviously he
hadn’t completed it by the previous August. Indeed,
within the last few weeks he has rendered his seven­
teenth status report. Even more recently the defen­
dants have asked the district judge to rule that all
their debts to the government have been paid and
that the receivership should therefore be terminated.
Remember that if the judge refuses to “wind up” the
receivership, the order refusing to do so, though in­
terlocutory, will be appealable immediately. But the
judge has not ruled yet on the defendants’ motion.
The defendants argue that the receiver shouldn’t
be compensated because he shouldn’t have sold the
properties — because he sold them for less than twothirds of their appraised value and therefore in viola­
tion of 28 U.S.C. § 2001(b), or because he has suffi­
cient assets from the defendants to be able to pay the
government the entire sum that it claims the defen­
dants owe it, or because he sold them in bad faith. By
way of remedy they ask for rescission of the judicial
deeds that were issued to the buyers of the properties
sold by the receiver to monetize the tax liens.
These arguments, besides being premature be­
cause there is not yet an appealable judgment in the
postjudgment collection proceeding being conducted
by the receiver, appear to be frivolous — an alterna­
tive basis for concluding that the defendants’ chal­
lenge to the receivers’ actions in the postjudgment
collection proceeding does not engage our appellate
jurisdiction. Carr u. Tillery, 591 F.3d 909, 917 (7th
Cir. 2010); Crowley Cutlery Co. v. United States, 849
F.2d 273, 276-78 (7th Cir. 1988). The district judge
rightly rejected the defendants’ attempt to present
an appraisal high enough to trigger section 2001(b),

App. 61

that had been made by an appraiser whom the court
had not appointed or approved. And in the absence of
a stay, or some other circumstance that would cast a
cloud over the receiver’s sale of the partnership prop­
erties, a closed sale (that is, a sale that has been exe­
cuted, not just contracted for) of a debtor's assets
can’t be reopened. United States v. Buchman, 646
F.3d 409, 410 (7th Cir. 2011); Federal Deposit Ins.
Corp. v. Meyer, 781 F.2d 1260, 1264 (7th Cir. 1986);
In re Vetter Corp., 724 F.2d 52, 55 (7th Cir. 1983). No
stay was issued. Nor was the district judge required
to make a finding that the properties had been sold
to purchasers in good faith, in the absence of any in­
dication of bad faith. As for the defendants’ argument
that the receiver shouldn’t be compensated because
he shouldn’t have sold the properties, the time to
make the argument is when the receivership ends,
thus terminating the postjudgment collection pro­
ceeding, or earlier, if and when the district judge re­
fuses to end the receivership.
To conclude, the judgment in appeal 13-1113 —
the order that appointed the receiver — is affirmed
and the other ap-peals are dismissed. Appeal 131113, the one we’re affirming, is the only one of
which we have jurisdiction because it’s the only
appealable judgment; the order that appointed the
receiver was the last order in the first proceeding and
so completed that proceeding. The remaining four
appeals were all from unappealable interlocutory
orders — although the issues presented in the two
interlocutory appeals in the first proceeding were
within our jurisdiction to resolve be-cause an appeal
from a final judgment can challenge earlier orders in
the case to the extent that the judgment was based
on them.

App. 62

Appendix G
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
) E-FILED
) 06 August, 2014

UNITED STATES OF
AMERICA,
Plaintiff,
v.

)

) Case No. 10-1078

ROBERT K. ZABKA, et al.
Defendants,

)
)
)

ORDER
This matter is now before the Court on
Defendants’ Antiques Limited Partnership, Brookstone Hospitality, Limited Partnership, ZFP, Limited
Partnership, Robert K. Zabka, Debra Zabka and
Dunamis, LLC (collectively “Defendants”) “Motion to
(1) Determine All Judgments Fully Satisfied;
Dissolve the Receivership; (3) Return All Assets,
Books and records to Dunamis, LLC.” (ECF No. 328).
For the reasons set forth below, the Defendants’
Motion is DENIED.

BACKGROUND
This suit was brought by the Government to
obtain judgment and. to collect unpaid federal income
tax assessments against Robert and Debra Zabka
(“Zabkas”). (ECF No. 1). The Government also sought
to enforce tax liens against the Zabkas’ property. Id.

App. 63

On February 25, 2011, the Court found that
Zabkas were liable to the Government based on
unpaid assessments of federal income tax, penalties,
and interest, in the amount of $834,476.00 for the
1996 tax year, and $934,982.26 for the 1997 tax year.
(ECF No. 64).
On July 14, 2011, this Court granted the
Government’s
Motion
for
Partial
Summary
Judgment and found that the Zabkas are liable “for
unpaid assessments of income tax, penalties, and
interest in the amount of $570,569.52 for the year
1998 and in the amount of $1,096,965.45 for the year
1999 plus interest and other statutory additions
accruing from and after January 18, 2011.” (ECF No.
111). The amount due for these tax years was
reduced as a result of the IRS filing a Notice of IRS
Adjustments, explaining that the application of
partial abatements proposed during the audit
reconsideration in 2004, as well as corresponding
partial abatements of failure-to-pay penalties that
were assessed against the Zabkas in 2005 and 2007,
after the audit reconsideration, would reduce the
amounts owed for tax year 1998 to $458,249.15 and
$483,722.31 for tax year 1999, plus interest and
other statutory additions accruing for both years
from and after May 31, 2013. (ECF No. 254).
On March 30, 2012, the Court found that federal
tax liens arose when the IRS made tax assessments
against the Zabkas and that those liens have
attached to all personal property and rights to
property of the Zabkas, including all of their
ownership interests in the Brookstone Hospitality
Limited Partnership, Antiques Limited Partnership,
and ZFP Partnership. (ECF No. 144).
The Defendants now move for, among other

App. 64

things, a determination that all judgments are
satisfied based on a recently allowed net operating
loss carryback processed by the IRS for the Zabkas’
2000 tax year in the amount of $926,576.00. (ECF
No. 328). Notably, the Zabkas concede that the net
operating loss carryback would not cover the entire
judgment for the 1998 and 1999 tax years, nor would
it address the amounts due for the 1996 and 1997 tax
years. (See ECF No. 328 at 2). However, the Zabkas
note that this amount in addition to the amount
collected by the Receiver would satisfy the judgment
for the 1998 and 1999 tax years. In response, the
Government explains, among other things, that the
tax abatements are in the process of being reversed
by the IRS.
Discussion
The Federal Rules of Civil Procedure enable a
party to obtain- relief from a final order if the
judgment has been “satisfied, released, or
discharged.” See Fed.R.Civ.P. 60(b)(5). In this case,
the Defendants seek to have the Court enter a
satisfaction of judgment based on the fact that they
were recently allowed a net operating loss carryback
of $926,576.00 that could be applied to amounts owed
for tax years 1998 and 1999. Initially, the Court
raised the issue of whether or not it had jurisdiction
over this matter because it was on appeal. That
question was mooted when the United States Court
of Appeals for the Seventh Circuit entered its Order
dated July 28, 2014, affirming this Court’s Order
appointing the receiver and dismissing the
Defendants’ other appeals. United States of America
and Timothy Louis Bertschy v. Antiques Limited

App. 65

Partnership, et al., Case Nos. 12-2998, 12-3380, 131113, 13-2918, 14-1266 (7th Cir. July 28, 2014).
During the hearing held on July 25, 2014, the
• Defendants acknowledged that the allowance of the
net operating loss carryback had been, or was in the
process of being, reversed. Defendant did not argue
that the Government was prohibited from taking
such action. However, the Defendants did argue that
equity provides a basis for this Court to reduce, or
satisfy, the judgment. But, in the end, Defendants
conceded that this matter was controlled by law.
Nonetheless, the Defendants pressed this Court to
grant their Motion.
The Government for its part has acknowledged
that the net operating loss carryback was approved
by an IRS employee, but the employee’s actions were
unauthorized and improper, and the abatements are
legally void. (ECF No. 333 at 2). The Government
also explained that the abatements are in the process
of being reversed. Id.
The Court finds that it need not determine
whether or not the abatements were legally void
when the IRS employee authorized them. The Court
makes no findings of facts regarding the transactions
that resulted in this underlying motion. The
following is simply a summary based on the Parties’
submissions to place context on this issue that has
arisen.
On or around March 28, 2014,1 the Zabkas filed a
request for adjustment for the periods of December
31, 1998, through December 31, 1999, with the IRS.
(ECF No. 328-1 at 1). The adjustment was processed
1 The Zabkas initially filed the amended tax returns on or
around December 23, 2013, but additional documentation had
to be submitted. (ECF No. 333-1 at 1-2).

App. 66

on or around June 11, 2014, and the net operating
loss [for tax period ended December 31, 2000] was
applied to the gains in the years 1998 and 1999. Id.
This still resulted in a tax liability for the Zabkas for
1998 and 1999, but it was substantially reduced.
(ECF No. 328-1 at 4-9). In addition, there was a
remaining net operating loss of $93,367.00 that was
available to be carried forward. Id.
IRS Employee Donna Almanza (“Almanza”) pro­
vided an affidavit in support of the Government’s
position. (ECF No. 333-1). In her affidavit, Almanza
explains that she was the employee assigned to pro­
cess the Zabka’s request for adjustment. Id. Almanza
further explained that she did not examine the
Zabka’s 2000 tax return but noted that there was a
net operating loss for that year that had not been
absorbed. (ECF No. 333-1 at 2). She saw a litigation
freeze on the Zabka’s 1998 and 1999 tax years, but
was wrongly informed that it would be appropriate to
apply the net operating loss from 2000 tax year to
the 1998 and 1999 tax year as long as there was no
refund being issued. (ECF No. 333-1 at 3). Because of
that, she made the adjustment. Id. She was sub­
sequently informed that the adjustments were void
and had to be reversed. (ECF No. 333-1 at 4). Finally,
she explains that the process to reverse the adjust­
ments has started. Id.
The Defendants’ Motion is premised on the fact
that the IRS has conceded a net operating loss for tax
year 2000. The fact that the abatement is, or will be,
reversed ends this inquiry. For whatever reason, the
IRS and Government are opposing the application of
the net operating loss at this time. Ultimately, the
Zabkas may proceed through the IRS system and
attempt to receive the tax abatement. However, at

App. 67

this time the Court finds that the Zabkas have not
satisfied the judgment. Accordingly, the Defendants
request that the Court enter an order finding that all
Judgments are fully satisfied is DENIED. Because
the remaining relief sought by the Defendants is
based on a finding that the Judgments are satisfied,
the entire “Motion to (1) Determine All Judgments
Fully Satisfied; Dissolve the Receivership; (3) Return
All Assets, Books and records to Dunamis, LLC”
(ECF No. 328) is DENIED.
The
Court
had previously stayed
the
Receivership’s activities pending the resolution of
this Motion. Having now resolved the Motion, the
Court finds that the receivership activities should
continue. As noted during the August 5, 2014, status
hearing, the Court directs the parties to confer on the
receivership activities that need to be completed and
be prepared to discuss that matter during the next
status conference scheduled for August 27, 2014, at
11:00 A.M.
Conclusion
For reasons stated herein, Defendants “Motion to
(1) Determine All Judgments Fully Satisfied;
Dissolve the Receivership; (3) Return All Assets,
Books and records to Dunamis, LLC” (ECF No. 328)
is DENIED. The Court’s stay on receivership
activities is LIFTED.
ENTERED this 6th day of August 2014.
/s/ Michael M. Mihm
Michael M. Mihm
United States District Judge

App. 68

Appendix H
Filed: 03/06/2015
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
ORDER
Submitted February 25, 2015
Decided March 6, 2015
Before
RICHARD A. POSNER, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
JOHN DANIEL TINDER, Circuit Judge
No. 14-3177

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
ROBERT K. ZABKA, et al.,
Defendants - Appellants

Originating Case Information:
District Court No: l:10-cv-01078-MMM-JEH
Central District of Illinois
District Judge Michael M. Mihm
The following are before the court:
1.

UNITED STATES’ DOCKETING STATEMENT,
filed on October 20, 2014, by counsel for the
appellee.

2.

RESPONSE TO PLAINTIFF-APPELLEE’S MO­
TION TO DISMISS BY DEFENDANTS-APPEL-

App. 69

LANTS, filed on November 4, 2014, by counsel
for the appellants.
3.

UNITED STATES’ REPLY TO APPELLANTS’
OPPOSITION TO DISMISSAL OF THIS AP­
PEAL, filed on November 24, 2014, by counsel for
the appellee.

4.

MOTION FOR PERMISSION TO FILE A SUR
REPLY, filed on December 15, 2015, by counsel
for the appellants.

5.

UNITED STATES’ RESPONSE IN OPPOSI­
TION TO APPELLANTS’ MOTION TO FILE A
SURREPLY TO OUR REPLY TO THEIR OP­
POSITION TO DISMISSAL OF THIS APPEAL,
filed on December 16, 2014, by counsel for the
appellee.

6.

REPLY IN SUPPORT OF MOTION FOR PER­
MISSION TO FILE SUR REPLY, filed on
December 18, 2014, by counsel for the appellants.

We have reviewed the government's docketing
statement, in which it requests dismissal of this
appeal or summary affirmance, the parties’ res­
ponses and replies, and the relevant district court
orders. We conclude that further briefing would not
be helpful to the court’s consideration of the issues in
this appeal. See Taylor v. City of New Albany, 979
F.2d 87 (7 th Cir.1992); Mather v. Village of
Mundelein, 869 F.2d 356, 357 (7th Cir. 1989) (per
curiam) (court can decide case on motions papers and
record where briefing would be a waste of time and

App. 70

no member of the panel desires briefing or
argument).
We have jurisdiction to review the district court's
orders refusing to dissolve the receivership. See 28
U.S.C. § 1292(a)(2); United States u. Antiques
Limited Partnership, 760 F.3d 668, 671 (7th Cir.
2014). The district court did not err when it
determined that appellants had not yet satisfied the
judgments. As a result, we summarily AFFIRM the
district court’s orders refusing to dissolve the
receivership. Because the receivership remains in
place, the district court’s orders relating to the
receiver’s compensation or sale of property are still
interim orders, see Antiques Limited Partnership,
760 F.3d at 672-73, and we decline to review them at
this time.
The motion to file a sur-reply is GRANTED to
the extent that the panel considered appellants’ surreply.

App. 71

Appendix I
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
) E-FILED
) 29 November, 2017

UNITED STATES OF
AMERICA,
Plaintiff,
v.

)

) Case No. 10-1078)
MMM-JAG
ROBERT K. ZABKA, DEBRA )
ZABKA, BROOKSTONE
)
HOSPITALITY LIMITED
)
PARTNERSHIP, ANTIQUES )
LIMITED PARTNERSHIP,
)
ZFP LIMITED PARTNERSHIP)
PRARIE STATE BANK &
)
TRUST, N.A., FIRST MID)
ILLINOIS BANK & TRUST,
)
N.A., BANK OF AMERICA,
)
N.A., ELEOS, LLC, and
)
)
DUNAMIS, LLC,
)
Defendants.
ROBERT K. ZABKA and
)
)
DEBRA ZABKA,
Counterclaim-Plaintiffs, )
)
v.
)
)
UNITED STATES OF
)
AMERICA,
Counterclaim-Defendant.)

App. 72

FINAL ORDER
Cause coming to be heard upon the Final Report
of Receiver and Receiver’s Fifth Application for
Compensation, the parties, having been given notice
and an opportunity to respond, and the Court being
fully advised,

IT IS HEREBY ORDERED AS FOLLOWS:
1. The Final Report of Receiver is approved.
2. The management and control of Antiques
Limited Partnership, ZFP Limited Partnership, and
Brookstone Hospitality Limited Partnership (the
“Limited Partnerships”) is returned to those entities
such as it was before the Order Appointing Receiver.
3. The frozen funds in the checking accounts of
the Limited Partnerships located at First Neighbor
Bank in Charleston, Illinois, in the amounts of
$55.84 for Brookstone Hospitality Limited Partner­
ship, $20.89 for ZFP Limited Partnership, and $29.60
for Antiques Limited Partnership, is released to the
Limited Partnerships.
4. After payment of his fees and expenses, the
Receiver shall make payment of the remaining funds
to the U.S. Department of Justice. The memo line of
the check(s) should include: CMN 2008102081 and be
mailed to:
For regular United States mail delivery:
Department of Justice ATTN: TAXFLU
P.O. Box 310 - Ben Franklin Station
Washington, D.C. 20044
For courier (FEDEX, UPS, etc) delivery:
Department of Justice ATTN TAXFLU
Room 6647 - Judiciary Center Building

App. 73

555 Fourth Street, N.W.
Washington, D.C. 20001
5. Timothy L. Bertschy, the Receiver, is and
shall be fully relieved and discharged of all of his
duties and obligations under the orders entered in
this matter and any other duties or obligations
incident to his appointment or service as Receiver in
this action.
6. All actions taken by the Receiver, his attor­
neys and his financial advisor(s) in this matter were
taken in the proper administration of the Receiver­
ship.
7. Neither the Receiver nor any of his attor­
neys, accountants or consultants shall have any lia­
bility to any person or entity for any action taken in
connection with carrying out the procedures set forth
in this Order or any other orders entered in this ac­
tion, or otherwise taken in connection with the
Receiver’s appointment or service in this action. The
Receiver and his attorneys, accountants, and consul­
tants are hereby fully released and discharged from
any and all claims and causes of action which might
be brought against them for matters arising from
their administration of the assets turned over to the
Receiver, including, without limitation, any claim
concerning or relating to the filing of any local, state,
or federal tax returns for Brookstone Hospitable
Limited partnership, Antiques Limited Partnership,
and ZFP Limited Partnership and/or the reporting of
any income assets or tax consequences to any person
or entity.
8. The Receiver is authorized and directed to
return materials from the Limited Partnerships to
those entities or their representatives. The Receiver

App. 74

is authorized to maintain a copy of said records and
to dispose of the same pursuant to his firm’s record
retention policy.
9. The receiver’s Fifth Application for Compen­
sation is granted. Additionally, the Receiver reports
incurring $1,897.50 in fees and $95.77 in expenses
since the filing of the Fifth Application for Compen­
sation and requests payments for these items. The
Receiver’s request is granted.
10. The Receiver is authorized to withdraw/
transfer from the Receivership accounts an amount
equal to $37,684.00 in fees, and $2,100.72 in expen­
ses, from a total of $39,784.72.
11. This Order is a final order and the period in
which an appeal must be filed shall commence upon
the entry hereof.
Entered this 29th day of November, 2017.
/s/ Michael M. Mihm
Honorable Judge Michael M. Mihm

App. 75

Appendix J
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
) FILED
) NOV 30 2017

UNITED STATES OF
AMERICA,
Plaintiff,
v.

)

) Case No. 10-1078)
MMM-JAG

)
ROBERT K. ZABKA, DEBRA
)
ZABKA, BROOKSTONE
)
HOSPITALITY LIMITED
)
PARTNERSHIP, ANTIQUES
)
LIMITED PARTNERSHIP,
ZFP LIMITED PARTNERSHIP )
)
PRARIE STATE BANK &
)
TRUST, N.A., FIRST MID)
ILLINOIS BANK & TRUST,
)
N.A., BANK OF AMERICA,
)
N.A., ELEOS, LLC, and
)
DUNAMIS, LLC,
)
Defendants.

ROBERT K. ZABKA and
DEBRA ZABKA,
Counterclaim-Plaintiffs,
v.

).
)

)
)
)
)
)

UNITED STATES OF
AMERICA,
Counterclaim-Defendant. )

App. 76

.

JUDGMENT IN A CIVIL CASE
DECISION BY THE COURT. This action
came before the Court and a decision has been
rendered.
IT IS ORDERED AND ADJUDGED On
July 14, 2011, this Court entered an Order granting
summary judgment in favor of the Plaintiff, the
United States of America, and against the Defendant
Robert K. Zabka and Debra Zabka (“Zabkas”) finding
the Zabkas responsible for unpaid assessment of
income tax, penalties, and interest in the amount of
$570,569.52 for the year 1998 and in the amount of
$1,096,965.45 for the year 1999, plus interest and
other statutory additions accruing from and after
January 18, 2011. (ECF No. 111).
IT IS FURTHER ORDERED AND AD­
JUDGED On March 30, 2012, this Court entered an
Order finding that federal tax liens arose when the
IRS made tax assessments against the Zabkas and
that those liens have attached to all personal
property and rights to property of the Zabkas,
including all of their ownership interests in the
Brookstone
Hospitality Limited
Partnership,
Antiques Limited Partnership, and ZFP Partnership.
(ECF No. 144).
IT IS FURTHER ORDERED AND AD­
JUDGED On November 20, 2012, and supplemented
on January 23, 2013, this Court appointed a Receiver
to oversee the identification and sale of the assets of
the Zabkas. (ECF Nos. 201 and 226).
IT IS FURTHER ORDERED AND AD­
JUDGED Beginning after the appointment of the
Receiver, the Court made various other rulings
related to the identification and sale of the assets.

App. 77

The Final Order having been entered on November
29, 2017.
Dated: 11/30/2017
s/Kenneth A. Wells
Kenneth A. Wells
Clerk, U.S. District Court

App. 78

Appendix K
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
UNITED STATES OF
AMERICA,
Plaintiff,
v.

) FILED
) JUN 08 2018
)

) Case No. 10-1078)
MMM-JAG
)

ROBERT K. ZABKA, DEBRA
ZABKA, BROOKSTONE
)
HOSPITALITY LIMITED
)
PARTNERSHIP, ANTIQUES
)
LIMITED PARTNERSHIP
)
ZFP LIMITED PARTNERSHIP )
PRARIE STATE BANK &
)
)
TRUST, N.A., FIRST MIDILLINOIS BANK & TRUST,
)
)
N.A., BANK OF AMERICA,
N.A., ELEOS, LLC, and
)
DUNAMIS, LLC,
)
Defendants.
)

ROBERT K. ZABKA and
DEBRA ZABKA,
Counterclaim-Plaintiffs,
v.

)
)

)
)
)
)
)

UNITED STATES OF
AMERICA,
Counterclaim-Defendant. )

App. 79

AMENDED
JUDGMENT IN A CIVIL CASE
DECISION BY THE COURT. This action was
decided by Judge Michael Mihm on Motions for
Summary Judgment.
Plaintiff United States of America (“Plaintiff’)
recovers from Defendants Robert K. Zabka and
Debra Zabka (“Zabkas”) unpaid assessments of
income tax, penalties, and interest in the amount of
$834,476.00 for the year 1996 and in the amount of
$934,982.26 for the year 1997, plus interest and
other statutory additions accruing from and after
April 15, 2010.
Furthermore, Plaintiff, the United States of
America recovers from the Zabkas unpaid
assessment of income tax, penalties, and interest in
the amount of $570,569.52 for the year 1998 and in
the amount of $1,096,965.45 for the year 1999, plus
interest and other statutory additions accruing from
and after January 18, 2011.
Furthermore, these liens attach to all personal
property and rights to property of the Zabkas,
including all of their ownership interests in the
Partnership,
Limited
Hospitality
Brookstone
Antiques Limited Partnership, and ZFP Partnership.
The Court appointed a receiver to oversee the
identification and sale of the assets of the Zabkas.
Dated: 6/8/2018
s/Denise Koester
Denise Koester
Acting, Clerk, U.S. District Court

App. 80

Appendix L
Filed 10/03/2019
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with
Fed. R. App. P. 32.1
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
Argued September 12, 2019
Decided October 3, 2019
Before
JOEL M. FLAUM, Circuit Judge
FRANK H. EASTERBROOK, Circuit Judge
DANIEL A. MANION, Circuit Judge
Nos. 18-1454 & 18-1916
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
and
TIMOTHY LOUIS BERTSCHY,
Receiver-Appellee,
v.
ROBERT K. ZABKA, et al„
Defendants-Appellants.
Appeals from the United States District
Court for the Central District of Illinois.
No. 10-cv-01078
Michael M. Mihm, Judge.
App. 81

ORDER
These consolidated appeals are the seventh and
eighth arising from this litigation. The United States
brought this action to enforce tax assessments
against the Defendants and to foreclose tax liens.
Because we find Appellants fail to raise any
appealable issues arising from the judgment on
appeal, we dismiss the appeals for lack of
jurisdiction.
The history of this litigation is long and
complicated, but a summary suffices here. The
government brought this action to enforce tax
assessments against Defendants Robert and Debra
Zabka. The government also sought to foreclose tax
liens on property owned by the Zabkas and by the
limited partnership Defendants. In 2014, we resolved
the first five appeals arising out of this litigation.
United States v. Antiques Ltd. P’ship, 760 F.3d 668
(7th Cir. 2014).1 We affirmed the district court’s
order appointing a receiver and its authorization of
the receiver to enforce the tax liens by selling
property owned by the limited partnerships. We
recognized that “once the appointment was made, all
the issues presented in the litigation” — including
the validity of the tax liens and assessments and the
amount of tax liability — “had finally been resolved.”
Id. at 671. Therefore, the district court’s order
appointing a receiver was a final appealable order
that ended the merits phase of this litigation and
initiated the post-judgment collection phase. Id. We
also affirmed the receiver’s authorization to sell the
partnerships’ properties. Id. at 672. That order was
1 We resolved a sixth appeal in a 2015 unpublished order.
United States v. Zabka, No. 14-3177 (7th Cir. Mar. 6, 2015).

App. 82

an unappealable interlocutory order. But the issue of
the receiver’s authorization to sell the partnerships’
properties could be reviewed on appeal of the final
judgment to the extent that judgment was based
upon the receiver’s authorization. Id. at 672, 674.
The receiver liquidated the partnerships’ assets
to enforce the tax liens. Several real properties
owned by the partnerships were sold over the course
of four years. The district court entered an order
approving each sale. The receiver filed his final
report in October 2017. The district court approved
the final report and wrapped up the receivership in
an order issued November 29, 2017, and judgment
was entered on November 30. The Zabkas and the
limited partnerships separately appealed that
judgment, resulting in these consolidated appeals.
Appellants endeavor to challenge the sales as
violations of Illinois partnership law and to contest
the amount of their tax liability. We lack jurisdiction
to consider either argument. Our appellate review is
limited to final decisions of the district courts. 28
U.S.C. § 1291. It is true that an appeal from a final
judgment “draws in question all prior non-final
orders and all rulings which produced the judgment.”
House v. Belford, 956 F.2d 711, 716 (7th Cir. 1992).
But Appellants challenge the rulings authorizing the
receiver to sell the limited partnerships’ property and
determining the Zabkas’ tax liability. Those rulings
did not produce the order now on appeal; they
produced the final merits judgment and the order
appointing the receiver. We affirmed in Antiques
Limited that all merits issues were finally decided at
the time the district court appointed the receiver in
2014, which included the liability amount. 760 F.3d
at 671. The receiver’s authorization - to satisfy the

App. 83

government’s liens by liquidating the partnerships’
assets was also affirmed by this court in Antiques
Limited as an interlocutory ruling subsumed within
the final judgment. 760 F.3d at 672. Simply put,
Appellants cannot use an appeal from the final
judgment of the collection proceeding to challenge
decisions underlying the merits judgment and
affirmed in earlier appeals.
Because Appellants fail to raise any appealable
issues, we lack jurisdiction over these appeals.
Accordingly, we DISMISS the appeals.

App. 84

Appendix M
Filed: 10/03/2019
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
FINAL JUDGMENT
October 3, 2019
Before: JOEL M. FLAUM, Circuit Judge
FRANK H. EASTERBROOK, Circuit Judge
DANIEL A. MANION, Circuit Judge
Nos. 18-1454 and 18-1916
]
]
]
]
]
]
TIMOTHY LOUIS
BERTSCHY,
]
]
Appellee,
]
v.
]
]
ROBERT K. ZABKA,
]
et al.,
]
Defendants-Appellants. ]

UNITED STATES OF
AMERICA,
Plaintiff-Appellee,
and

Appeals from the United
States District Court for
the Central District of
Illinois.
No. l:10-cv-01078-MMM
]
Michael M. Mihm,
Judge.

We DISMISS the appeals, with costs, in accord­
ance with the decision of this court entered on this
date.

App. 85

